<html>
<title> - SCIENTIFIC INTEGRITY AND TRANSPARENCY REFORMS AT THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 111-1194]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1194

                        SCIENTIFIC INTEGRITY AND
                      TRANSPARENCY REFORMS AT THE
                    ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2009

                               __________


 Printed for the use of the Senate Committee on Environment and Public 
                                 Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
                             __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-588 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

                       Subcommittee on Oversight

               SHELDON WHITEHOUSE, Rhode Island, Chairman
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
KIRSTEN GILLIBRAND, New York         DAVID VITTER, Louisiana
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 9, 2009
                           OPENING STATEMENTS

Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     4
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     5
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     7
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................     8

                               WITNESSES

Jackson, Lisa, Administrator, U.S. Environmental Protection 
  Agency.........................................................    10
    Prepared statement...........................................    13
Stephenson, John B., Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................    31
    Prepared statement...........................................    34
    Responses to additional questions from:
        Senator Boxer............................................    51
        Senator Lautenberg.......................................    52
        Senator Cardin...........................................    53
        Senator Inhofe...........................................    59
Grifo, Francesca, Senior Scientist and Director, Scientific 
  Integrity Program, Union of Concerned Scientists...............    71
    Prepared statement...........................................    74
    Responses to additional questions from:
        Senator Boxer............................................    94
        Senator Cardin...........................................    96
        Senator Vitter...........................................    97
Green, Kenneth P., Resident Scholar, American Enterprise 
  Institute for Public Policy Research...........................   104
    Prepared statement...........................................   107
    Response to an additional question from Senator Inhofe.......   112
Goldman, Lynn, Professor and Principal Investigator, Johns 
  Hopkins National Children's Study..............................   114
    Prepared statement...........................................   116

 
  SCIENTIFIC INTEGRITY AND TRANSPARENCY REFORMS AT THE ENVIRONMENTAL 
                           PROTECTION AGENCY

                              ----------                              


                         TUESDAY, JUNE 9, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                           jointly with the

                                 Subcommittee on Oversight,
                                                    Washington, DC.
    The full Committee and subcommittee met, pursuant to 
notice, at 10 a.m. in room 406, Dirksen Senate Office Building, 
Hon. Sheldon Whitehouse (chairman of the subcommittee) 
presiding.
    Present: Senators Whitehouse, Barrasso, Boxer, Inhofe, 
Lautenberg, Voinovich, Cardin, Carper, and Udall.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. The hearing will come to order.
    I am delighted to be joined by the Ranking Member of the 
full Committee, and I am the chairman of the Subcommittee, and 
this is a joint hearing.
    I am delighted to welcome the Administrator, and very 
pleased to be joined by Senator Udall and Senator Voinovich.
    From a point of view of logistics, I understand that 
Administrator Jackson has an appointment at the White House at 
11 o'clock, so you would like to leave here a little bit after 
10:30, I would think, in order to be able to be there on time. 
And in order to allow time for questions, I would ask that we 
keep our opening statements brief, and I may exercise the 
prerogative of the Chair to cut them off at some point so that 
we can get to the testimony and get to the question and answer.
    But I do want to thank the Administrator for being here 
today. This is only her third appearance before the Senate, 
which suggests her view of the importance of the issues of 
scientific integrity and transparency that bring us here today.
    I want to thank our Chairman, Senator Boxer, who will be 
here later in the hearing, but at the moment has 
responsibilities in other committees. Without Chairman Boxer, 
today's hearing would not have been possible.
    Under the previous Administration, as this Committee 
witnessed, EPA's integrity was compromised. Science took a back 
seat to politics. Polluters' interests came before protecting 
public health. And this proud agency suffered an embarrassing 
string of court defeats with rulings literally mocking the 
agency's arguments.
    But the winds of change have blown and under the Obama 
administration science is resuming its rightful place in public 
policy and EPA is reestablishing its reputation as an agency 
whose sole mission is to protect our health and environment.
    Two Governmentwide memoranda have gone out throughout the 
Obama administration directing all executive branch agencies to 
improve scientific integrity and achieve unprecedented levels 
of transparency and openness. Within EPA, Administrator Jackson 
has issued agency-specific guidance on the proper role of 
science and transparency in agency decisionmaking. EPA has also 
begun to repair programs and protocols that undermined the 
proper role of science in the previous administration.
    Last month, Administrator Jackson overhauled the integrated 
risk information system, known as IRIS. IRIS assesses the 
toxicity of new chemicals to determine their potential risks to 
human health. Under the last Administration, IRIS was changed 
to a complicated, obscure, 25-step process full of unnecessary 
conflicts of interest and delays. Reviews were taking 5 or 6 
years or more, and the Office of Management and Budget was 
given undue secret influence over the outcome. The overhaul 
restores the integrity and transparency of the IRIS system and 
ensures that the majority of IRIS reviews are complete within 
23 months.
    Administrator Jackson has also resumed the staff white 
paper used to give the Administrator the recommendations of 
EPA's expert scientists, which former Administrator Johnson had 
replaced with an advanced notice of proposed rulemaking to wide 
opinion that this was an attempt to sideline the expert opinion 
of agency scientists in order to favor the opinions of 
industries regulated by the EPA.
    We applaud this great start, but there is clearly more to 
do. The last 8 years have taught us that we need lasting 
reforms that permanently reestablish EPA's credibility and 
restore the pride of its dedicated employees who work long 
hours for much less money than they could be paid elsewhere, 
with passion and dedication, because they care deeply about 
EPA's mission.
    I hope we will have the opportunity to discuss some of 
these future plans today. EPA's important mission protecting 
the health of the American people and the environment that 
sustains us and our children gives it sobering 
responsibilities. It must be as its first Administrator, 
William Ruckelshaus described it, an independent agency with 
only the critical obligation to protect and enhance the 
environment.
    Administrator Jackson, it appears that you and your 
colleagues stand ready to meet these responsibilities. I 
welcome you. I look forward to your testimony.
    And I turn to our very distinguished Ranking Member for his 
opening statement.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I welcome the Administrator here today, and I agree with 
the statement that was made in the opening part of the 
Chairman's statement that best available science is important, 
and I applaud you, Madam Administrator, for coming out and 
talking about scientific integrity and transparency as 
something that is going to be expected. But I have to look and 
see what the record is so far, and I think transparency and 
openness are losing for right now.
    For one, I was disappointed by a recent announcement that 
EPA is eliminating a policy to make the process of setting 
national ambient air quality standards more transparent. I was 
also troubled to read about the secretive process behind the 
Administration's recent proposal for the new fuel economy 
standards. According to Energy and Environment Daily, Mary 
Nichols, head of the California Air Resources Board, and Carol 
Browner, quote, this is as it was quoted in the Energy and 
Environment Daily, which I suspect that you have read. It says, 
``quietly orchestrated private discussions from the White House 
with the auto industry officials,'' in an effort to conceal 
information used to develop the fuel economy proposal, Nichols 
said that she and Browner, ``put nothing in writing ever.''
    Now, that doesn't look like transparency and openness, and 
this was the process on an issue of great importance. Instead 
of back room dealings, EPA should be encouraging public 
participation at every step of the rulemaking process.
    Of course, openness and transparency can mean many things. 
At a minimum, they should mean that EPA conducts policy 
analysis using the best available science and that such 
analysis is clear, objective and accessible so the public can 
understand it.
    Again, measured against this standard, I am afraid that 
we've missed the mark. To cite just one example, in its 
economic analysis of the Waxman-Markey global warming bill, EPA 
assumes that carbon capture and storage technology will be 
commercially available by 2015. Considering the numerous 
unresolved issues surrounding CCS, including liability, siting, 
permitting and the viability of the technology itself, this 
assumption seems pretty far-fetched.
    Administrator Jackson, don't get me wrong. I appreciate 
EPA's analysis and assistance it provides in crafting 
legislation. I would say, however, that EPA's Waxman-Markey 
analysis is flawed in several important respects, including its 
assumptions, as I noted, about the nuclear power CCS, as well 
as the availability of offsets.
    It also fails to account for the impact of the bill's 
overlapping mandates and the regional disparities the bill will 
create. In order to provide a more balanced assessment of the 
bill's cost, some of my colleagues and I will be sending a 
letter requesting the EPA, in fact, I have the letter here 
right now, that the EPA conduct a new analysis of the Waxman-
Markey bill that reflects more realistic assumptions on a range 
of issues. I hope that you will commit to me today that the 
agency will re-work its analysis and complete it by June 26.
    This is the letter. It has been signed by all but two of 
the Republicans. They will sign it, but we haven't been able to 
get it signed yet. And I think it's consistent with the 
comments that you have made, Madam Administrator, and thank you 
for being here.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    I have always believed that one of the primary 
responsibilities of this committee is to ensure that regulatory 
decisions are based on the best available science. I want to 
commend Administrator Jackson for making scientific integrity 
and transparency essential components of EPA's mission. She has 
eloquently expressed support for these principles in Agency 
memos, congressional testimony, and speeches. My hope, 
Administrator Jackson, is that you will transform these words 
into actions.
    So what is EPA's record so far? At this point, transparency 
and openness are not winning the day. For one, I was 
disappointed by the recent announcement that EPA is eliminating 
a policy to make the process of setting National Ambient Air 
Quality Standards more transparent.
    I was also troubled to read about the secretive process 
behind the Administration's recent proposal for new fuel 
economy standards. According to Energy and Environment Daily, 
Mary Nichols, head of the California Air Resources Board, and 
Carol Browner, ``quietly orchestrated private discussions from 
the White House with auto industry officials.'' In an effort to 
conceal information used to develop the fuel economy proposal, 
Nichols said that she and Browner ``put nothing in writing, 
ever.''
    Now that doesn't look like transparency and openness; it's 
more like hide and seek. And this was the process on an issue 
of great importance. Instead of backroom dealings, EPA should 
be encouraging public participation at every step in the 
rulemaking process.
    Of course, openness and transparency can mean many things. 
At a minimum, they should mean that EPA conducts policy 
analysis using the best available science and that such 
analysis is clear, objective, and accessible so the public can 
understand it. Again, measured against this standard, I'm 
afraid EPA has missed the mark.
    Let me explain. In its economic analysis of the Waxman-
Markey global warming bill, EPA based its conclusions on 
several questionable assumptions. For example, EPA assumes that 
only 6 gigawatts of new nuclear generation will be built in the 
U.S. over the next 10 years and 13 gigawatts through 2025. Yet 
EPA's previous modeling of Lieberman-Warner assumed a much 
greater role for nuclear: 24 gigawatts by 2020 and 44 gigawatts 
by 2025.
    EPA also assumes that carbon capture and storage (CCS) 
technology will be commercially available by 2015. Considering 
the numerous unresolved issues surrounding CCS, including 
liability, siting, permitting, and the viability of the 
technology itself, this assumption seems farfetched.
    Administrator Jackson, don't get me wrong: I appreciate 
EPA's analysis and the assistance it provides in crafting 
legislation. I would say, however, that EPA's Waxman-Markey 
analysis is flawed in several important respects, including its 
assumptions, as I noted, about nuclear power, CCS, as well as 
the availability of offsets. It also fails to account for the 
impact of the bill's overlapping mandates, and the regional 
disparities the bill will create.
    In order to provide a more balanced assessment of the 
bill's costs, some of my colleagues and I will be sending you a 
letter requesting that EPA conduct a new analysis of the 
Waxman-Markey bill that reflects more realistic assumptions on 
a range of issues. I hope that you will commit to me today that 
the Agency will rework its analysis and complete it by June 26.
    In my view, conducting this new analysis is a necessary 
component of your pledge to make EPA more transparent. I look 
forward to working with you to make it a reality.

    Senator Whitehouse. Thank you, Senator Inhofe.
    Senator Udall, do you care to make an opening statement?
    Senator Udall. Just briefly, Chairman Whitehouse.
    Senator Whitehouse. I appreciate the brevity.
    Senator Udall. It's good. I also want to hear the 
Administrator on this very important subject.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. One of the things that I think struck me 
when I looked at this field. In 2008, a survey of EPA 
scientists concluded, and this is a survey done by the Union of 
Concerned Scientists and included a report signed by thousands 
of scientists, including several dozen Nobel Prize winners, 
reveals some disturbing information: 783 scientists responded 
that the EPA policies do not allow scientists to speak freely 
to the news media about their findings; only 197 scientists 
believe that the EPA allows scientists to communicate freely 
with the media; 291 scientists responded they are not allowed 
to publish work in peer-reviewed scientific journals regardless 
of whether it adheres to agency policies or positions.
    Now, I know the EPA under your leadership, Administrator 
Jackson, and the President, have made changes and I am looking 
forward to hearing about those today. I think as part of a 
systematic approach, I would recommend that we not limit 
ourselves only to the idea of the EPA fishbowl, but also to 
promote scientific integrity more broadly in the academic and 
private sector science that ultimately supports much of what 
EPA does through regulation.
    Intimidation, retaliation, lack of funding and political 
interference are not limited only to EPA, but pose problems 
throughout the scientific community.
    So my urging would be to the scientists and to the agencies 
that have these scientists, give us the truth. The people can 
handle the truth in a democracy. When we know the truth, then 
we can take the actions based upon sound science that will get 
us there.
    So thank you for being here today and I look forward to 
hearing your testimony.
    Senator Whitehouse. Thank you, Senator Udall.
    Senator Voinovich, do you care to make an opening 
statement?
    Senator Voinovich. Yes, I do. Thank you, Mr. Chairman.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. I appreciate the fact that we are having 
the hearing today. I firmly believe that EPA should be working 
with the best science and that the agency's analysis and 
decisions should be undertaken in a balanced and transparent 
process.
    One of the problems we have as policymakers is that 
advocates on all sides of a debate claim that the system is 
rigged. I have seen it now for 11 years, because of the fact 
that there is no credibility about who is giving the 
information.
    Greater transparency should help allay some of these 
concerns and, of course, the better information that we have, 
the better decisions that we are able to make.
    In this regard, I do have concern with EPA's recent 
evaluation of legislation passed out of the House Energy and 
Commerce Committee to address climate change. To help us fully 
understand how this bill will impact emissions and our Nation's 
energy infrastructure and economy, I am joining Senator Inhofe 
and my other colleagues in asking you to re-run an analysis of 
that piece of legislation.
    For example, the EPA assumes that nuclear power will expand 
by 150 percent over the lifetime of the program. This is in 
stark contrast to formidable challenges limiting the expansion 
of nuclear power, including the uncertainty in the Nuclear 
Regulatory Commission's licensing process, financing of the new 
bill, lack of human capital, and so forth. And I am a great 
advocate of nuclear power, as you know. The fact of the matter 
is that that seems to be a very ambitious number in order to 
meet the caps.
    Senator Inhofe has already talked about the issue of 
technology and capturing and sequestering carbon. I think you 
know that the Department of Energy has seven test cases right 
now on sequestering, and they claim that it will take them 10 
years to really evaluate those tests that they have that they 
are running. So those types of things are very, very important.
    As we all know, EPA's modeling is only as good as the 
assumptions that are built into it, and here optimistic 
assumptions about technology and offset availability and the 
lack of comprehensive analysis of the entire legislative 
proposal greatly constrains the potential costs of the program.
    And I think that analysis of the previous cap-and-trade 
legislation showed significant economic hardship, while 
providing no impact on global temperatures. The time to take a 
detailed look at this is right now.
    The point I am making is that the last time we had this 
before this Committee--first of all, we didn't have enough 
hearings, and I am going to ask the Chairman of the Committee 
to have some more hearings. They had eight of them in the 
House. We only had two of them, and I think we need to have 
those hearings.
    But more important, there is no way that we ought to vote a 
bill out of this Committee until we have heard from the 
Environmental Protection Agency as to its impact. The last time 
around, we didn't get the EPA analysis until after it went out 
of Committee. We didn't get the energy information. So there's 
a lot of speculation about the real impact of it.
    So the point I would like to make today is that you're here 
to talk about good science, and I think it's great. And some of 
the concerns that Senator Inhofe mentioned about some of what 
went on in two instances bothers me. I think that the Acting 
Chairman of this Committee did a very good job of excoriating 
the last Administration. I don't think that it was bad as what 
he depicted to us today, in all due respect, and it's your job 
to make sure that, you know, 4 years form now somebody else 
isn't sitting in that chair and doing the same thing about your 
Environmental Protection Agency.
    So we look forward to your hearing and we look forward to 
working with you.
    Thank you also for serving in this capacity. As I said when 
you visited me in the office, you have the toughest job in the 
Federal Government.
    Senator Whitehouse. Senator Lautenberg, would you care to 
make an opening statement?
    Senator Lautenberg. Show me a Senator that doesn't care to 
make one.
    [Laughter.]
    Senator Whitehouse. Given that, the Chair will declare that 
this will be the last opening statement before we get to 
Administrator Jackson's testimony. If any other Senators 
arrive, their statements will be taken for the record. In that 
way, we can get to our testimony, given her schedule and the 
appointment she has at the White House.
    Senator Voinovich. And Mr. Chairman, I would like to have 
my entire statement in the record, by the way.
    Senator Whitehouse. Without objection.
    Senator Voinovich. OK.
    [The referenced material was not received at time of 
print.]
    Senator Whitehouse. Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Mr. Chairman, and 
thank you, Ms. Jackson. It's always a pleasure to see you 
because as I see it, and I don't know what Senator Whitehouse 
said, but you always carry good news.
    So I am happy, and I hope that the discussion was frank and 
candid that the Chairman participated in because we've had 
plenty of trouble. We've had fake science all over the place. 
We have had people who thought one way, professional people 
whose minds, no, their minds were changed, their words were 
changed. That's what we saw on a constant basis.
    From reversing global warming to creating clean energy, the 
jobs that go with it, identifying and replacing cancer-causing 
chemicals, science is the critical factor. And I know that 
you're a practitioner of truth, as well as science, and I 
appreciate that greatly.
    Science was under attack, under constant attack in the 
previous Administration, which did its best to ignore, censor 
and suppress science. For example, they let political 
appointees in the White House delay or stop EPA risk 
assessments if they didn't like the outcome. We rely on those 
studies to tell us which chemicals may cause cancer, birth 
defects or other serious health problems.
    But I am pleased to say, to note, that the Obama 
administration has already reversed some of the anti-science 
and anti-transparency policies of the past.
    Administrator Lisa Jackson, you come from New Jersey. You 
tell the truth, even if it hurts. And this helps. Ms. Jackson 
reversed the policy governing risk assessments and made it 
clear that science would direct them, not the politics.
    She issued a memo to EPA employees in May, ``Scientific 
integrity will be the backbone'' of her leadership of the 
agency, and we're grateful to you for that. And earlier this 
year, the White House directed the Office of Science and 
Technology Policy to create a plan to increase scientific 
integrity across the entire Federal Government.
    And I want to also commend the EPA Administrator Jackson 
and the Obama administration for defending scientists and their 
research. As the chairman of the subcommittee with jurisdiction 
over dangerous chemicals, I know that science is the foundation 
for protecting future generations.
    For example, there are tens of thousands of chemicals on 
the market, and if you tested the blood of any person in this 
room, you'd find an ample supply of industrial chemicals, 
including some that are known or suspected to cause cancer.
    Unfortunately, current law makes it difficult for the EPA 
to require testing of chemicals and also almost impossible for 
EPA to regulate these chemicals, even if they're believed to be 
dangerous. And that's why I plan to reintroduce my Kids Safe 
Chemicals Act in the coming months. The bill will require 
chemical companies to prove that their products are safe before 
they end up in our homes and come in contact with our children.
    We already regulate pesticides and pharmaceuticals this 
way, and it's just common sense that we do the same for 
chemicals that are used in consumer products.
    The new tone of openness, transparency and reliance on 
science is the right first step toward making our products, our 
homes and our environment safe for all our families. I applaud 
the Administration for their work, and I close with an example 
of a scientist that was brought in here from the Pasteur 
Institute in France. And he said that he absolutely denied the 
fact that global warming was in place because there would be 
more mosquitoes and more malaria if that was the case, and he 
hasn't seen examples of it. There is science on the fly if 
you've ever seen it.
    Thank you very much.
    Senator Whitehouse. Thank you very much.
    I see that the distinguished Senator from Maryland, Senator 
Cardin, has appeared. Before his arrival, I unfortunately took 
the liberty of closing the proceedings to further opening 
statements.
    Senator Cardin. Is that subject to objection?
    [Laughter.]
    Senator Whitehouse. I would ask that the distinguished 
Senator----
    Senator Cardin. I'm looking forward to hearing from the 
Administrator, so I would be glad to put my statement in the 
record.
    Senator Whitehouse. I would appreciate it. That's very 
kind.
    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Madam Chairman, thank you, and our colleague Chairman 
Whitehouse of the Oversight Subcommittee for holding this 
hearing today. And thanks to our witnesses for coming before 
the committee to help us address the very important issue of 
scientific integrity and transparency in the regulatory and 
enforcement work of the EPA. I especially want to thank and 
acknowledge Dr. Lynn Goldman from Johns Hopkins University in 
Baltimore, I am very much looking forward to your testimony.
    In September of 2008 this committee held an oversight 
hearing to examine President Bush's environmental record. I 
don't intend to fan partisan flames by rehashing that 
discussion, but I am greatly concerned about the legacy of Bush 
EPA policies that remain on the books and how they factor into 
enforcement actions, regulatory decisions and permit reviews 
taking place today. It is incredibly important for EPA to 
reassert the role science plays in its decisionmaking. We've 
seen a significant absence of science in the policies emanating 
from the Office of Water in particular.
    The implementation of programs within the Clean Water Act, 
our nation's legal foundation for surface water protection is 
an area of great concern to me. The stated goal of the Clean 
Water Act: ``To restore and maintain the chemical, physical and 
biological integrity of the Nation's water'' makes it clear 
that science is intended to guide the principals behind the 
law.

    Clean Water Act Jurisdiction
    After the Supreme Court handed down its narrowly split 
decisions in the SWANCC \1\ and Rapanos \2\ cases, both clear 
examples of the court's ideological factions, EPA used these 
decisions to issue an ideologically driven guidance that 
drastically narrowed the jurisdictional scope of the Clean 
Water Act. In an internal memo \3\ from former EPA Assistant 
Administrator for the Office of Enforcement and Compliance 
Assurance, Granta Nakayama noted that ``The Rapanos decision 
and the resulting Guidance have created uncertainty about EPA's 
ability to maintain an effective enforcement program with 
respect to Clean Water Act obligations.'' The memo further 
indicates that EPA's office of enforcement dropped or failed to 
pursue more than 500 Clean Water Act enforcement cases as a 
result of the Rapanos Guidance.
---------------------------------------------------------------------------
    \1\ Solid Waste Agency of Northern Cook County v. Army Corps of 
Engineers--2001.
    \2\ Rapanos v. Army Corps of Engineers--2006.
    \3\ U.S. Environmental Protection Agency, Memorandum from Granta Y. 
Nakayama, EPA's Assistant Administrator for Enforcement and Compliance 
Assurance, to Benjamin Grumbles, EPA's Assistant Administrator for 
Water (Mar. 4, 2008).
---------------------------------------------------------------------------
    This same guidance created a convoluted and inconsistent 
jurisdictional review process that has removed Federal clean 
water protections from millions of acres of wetlands and 
thousands of miles of streams that were historically protected 
by the Clean Water Act, including the entire Los Angeles River 
in California and the Santa Cruz River in Arizona. The faulty 
jurisdictional determination review process does not require 
site visits, nor analysis of the chemical composition of soils 
or water, nor recording of biological indicators.
    I appreciate the attention Administrator Jackson has given 
to this issue. The letter \4\ she and other leaders in the 
Administration sent to the Chairman of the House Transportation 
and Infrastructure Committee acknowledged the current Clean 
Water Act jurisdiction guidance's shortcomings and 
consistencies and laid out a set of principles for Congress to 
address in a legislative solution to the Rapanos and SWANCC 
decisions, which is very helpful.
---------------------------------------------------------------------------
    \4\ May 20, 2009 letter from Council on Environmental Quality, 
Environmental Protection Agency, United States Department of 
Agriculture, Department of Interior and the Army of Engineers. 
Administration's recommendations for legislative solution to Rapanos 
decision.

    Mountaintop Removal Coal Mining
    Mountaintop removal coal mining is one of the most 
environmentally destructive mineral extraction practices in the 
world. It's touted as being safer for workers, yet the harm the 
practice causes to drinking water sources, surface water 
quality and the incredibly destructive force and frequency of 
flood events exacerbated by mountaintop removal sites have made 
life in the towns located in the West Virginia coalfields 
anything but safe. Several scientific studies have been 
conducted on the adverse effects of mountaintop removal has on 
water quality and human health. Yet mountaintop removal mining 
is a permitted activity allowed by EPA.
    I know that the Department of Interior administers Surface 
Mining Control and Reclamation Act (SMCRA) programs, which 
regulate the mining operations themselves, however the valley 
fills, that require 404 (dredge and fill) permits, associated 
with mountaintop removals require EPA approval. Your 
predecessor rewrote the rules on valley fills throwing science 
out of the window and gave a rubberstamp to just about any 
mountaintop removal permit application that came through the 
Agency.
    A Harvard School of Public Health Study on life expectancy 
rates in the U.S., published in the Public Library of Science's 
Medical Journal on April 22, 2008 \5\, found West Virginians to 
have the lowest life expectancy in the country. Further 
examination of the Harvard study data, by West Virginians for 
Affordable Health Care \6\ found, at the county level, life 
expectancy rates in the Southern West Virginia coalfields, 
where mountaintop removal is the normative practice, to be in 
the lowest 1 percent in the country, nearly 11 years shorter 
than the national average.
---------------------------------------------------------------------------
    \5\ M. Ezzati, A. Friedman, S. Kulkarni, C. Murray, ``The Reversal 
of Fortunes: Trends in County Mortality and Cross-County Mortality 
Disparities in the United States.''
    \6\ http://www.wvahc.org/downloads/early_deaths.pdf.
---------------------------------------------------------------------------
    Drinking water studies in the West Virginia coalfields have 
revealed dangerously elevated heavy metal levels in the water 
that flows out of the taps of the region. The water is far from 
safe to drink, and when the color of the water that flows out 
of the tap changes from yellow, to orange to red and eventually 
black, as it often does, well, that is all the scientific proof 
these victims need to know that mountaintop removal mines 
threaten their lives.
    I appreciate the sentiment from the Administration on using 
science to guide its work. I only had time to delve into just 
some of the issues facing just one of EPA's program offices, 
the Office of Water. I look forward to hearing about the 
changes we can expect to see at EPA and the planned reforms to 
address the unfortunate policies that they inherited. I am 
confident that the reassertion of science will bring about the 
policy reforms necessary for the Environmental Protection 
Agency to get back to the work of protecting the environment.
    Thank you.

    Senator Whitehouse. With that, and with gratitude to the 
Senator from Maryland, Administrator Jackson, you have the 
floor.

 STATEMENT OF LISA JACKSON, ADMINISTRATOR, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Jackson. Thank you so much, Mr. Chairman.
    And thanks in absentia, at least for now, to Chairwoman 
Boxer for holding this hearing, for allowing me the honor of 
speaking on scientific integrity. As an engineer, as someone 
trained in science as a chemical engineer, if not in practice 
every day, it is truly an honor to be able to speak on behalf 
of the Administration on this topic.
    Also, good morning to the Ranking Member, to all members of 
the Committee. It is good to see you all.
    I just want to start by saying, and I will paraphrase my 
remarks. I am sure they are in the record. But if there is only 
one thing that we remember it is that good science does not 
simply happen at EPA or anywhere. Good science is only assured 
by the rigorous and constant application of processes that have 
been tried and true methods of showing the best way to reach 
scientific consensus on any topic. And there are many topics 
where opinion isn't entirely clear.
    Those are things like peer review, things like a scrupulous 
adherence to transparency, which I believe we are well on the 
road to not only committing to, but putting into practice at 
EPA. And I would love to give examples which I will do in my 
testimony.
    Many of the ideas I am going to share here this morning 
were in a memo that I issued just last month. We called it 
Scientific Integrity: Our Compass for Environmental Protection. 
We call it the Compass memo. We are driven, guided by science. 
It is not only the backbone, but it must be our guide.
    As you can see, I am very proud of the work EPA has done. 
I, too, have seen the surveys that Senator Udall cited that 
indicate that a majority of past EPA scientists have 
experienced what they believe is some form of political 
interference in their work. That has to change and it will 
change.
    Already, I sit here proud because I believe no other agency 
in Federal Government has done as much to restore the role of 
science than EPA, and that focus has come from me and from my 
office. It is important that career scientists know that their 
work will guide the policies that we make during my tenure and 
the tenure of the President.
    On March 9, as you noted, President Obama issued a memo on 
scientific integrity underscoring the need for the public to 
trust the science and scientific process that informed public 
policy decisions. It provides important guideposts for our 
work. And as I have said many times, while the laws that EPA 
implements have room for policy judgments within them, the 
scientific findings on which these judgments must be made must 
be independent. They must be arrived at using well-established 
scientific methods--peer-reviewed, and they must be rigorous 
and accurate and impartial.
    Policymakers must respect the expertise and independence of 
the agency's career scientists and independent advisers and 
insist that scientific processes meet the highest standards of 
quality.
    Now, we recognize that environmental science is complex and 
it is multifaceted, and scientists may differ on methodologies 
that should be employed or how any particular study should be 
interpreted. What I am committed to is that kind of debate 
within our agency, and I am committed to making sure that that 
debate receives a full airing of views, because I believe that 
makes final decisions that much stronger.
    Debate is not something that we should fear. It is actually 
a force to challenge us and guide us, and in New Jersey is 
makes us a little bit tougher. Right, Senator?
    Senior scientists must take responsibility for resolving 
differences, using established science policies and their best 
professional judgments. I believe actions do speak louder than 
words, and during my first few months as Administrator, we have 
taken several actions to bolster the scientific processes we 
use. We have emphasized the importance of transparency and re-
thought the integrated risk information system, or IRIS.
    The new process is more transparent, but it is also timely 
because timeliness is crucial to making sure that when the 
science comes out, it is still useful to the American people 
and to policymakers. EPA will control the IRIS process as it 
has done in the past. Once again, it now controls it and it 
will have final responsibility for the content of the IRIS 
assessments.
    At the end of the day, EPA will listen, take in the best 
scientific opinion from many sources, but it will be the 
arbiter about what the final decisions are.
    We are improving efficiency, integrity and transparency in 
our programs. Our commitment to quality, integrity and timely 
public engagement was also the impetus for EPA staff to develop 
a science plan for our activities. We are working to develop, 
for example, a comprehensive human health and exposure 
assessment for dioxin, the dioxin reassessment. And I have 
committed that that reassessment will be completed by the end 
of calendar year 2010.
    When we speak about the national ambient air quality 
standards, we know they play a central role in protecting human 
health and the environment, and we have now reexamined our 
NAAQS process to ensure that we take into account the latest 
peer-reviewed science of the Clean Air Scientific Advisory 
Committee, or CASAC, authorized by law to advise EPA on 
standards.
    It is essential that the best science and the greatest 
transparency inform air quality standards because we know that 
prevents illnesses and saves lives.
    Finally, the President's Memorandum on Scientific Integrity 
assigns the Director of the White House Office of Science and 
Technology Policy the responsibility to make recommendations to 
achieve the highest level of integrity in the executive 
branch's involvement with scientific and technical processes. 
EPA's active involvement will strengthen our ability to produce 
top quality science that meets the highest standards of 
integrity.
    I have also asked our Acting Science Adviser Kevin 
Teichman, who is here with me today, to work closely with OSTP. 
After OSTP issues its recommendations, I will work closely to 
make sure that we are fully applying them at EPA.
    The Presidential Memorandum on Scientific Integrity 
provides us with a unique opportunity to demonstrate our deep 
commitment to scientific integrity and fulfill our obligations 
to the American people. I commit to seizing this opportunity in 
the pursuit of EPA's vital mission to protect human health and 
the environment.
    Thank you very much.
    [The prepared statement of Ms. Jackson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you very much, Administrator.
    I count six of us present, and Chairman Boxer to come, 
which makes seven. So if we take 5 minutes each, we should just 
about meet your schedule. So I would encourage my colleagues to 
use their 5 minutes wisely, because I will try to stay within 
that, knowing your scheduling demands.
    Ms. Jackson. Thank you.
    Senator Whitehouse. Administrator Jackson, many of us view 
the EPA as an organization that is emerging from a terrible 
time, whether it is the documented experiences of EPA 
scientists that Union of Concerned Scientists catalogued and 
that Senator Udall referred to, or the decisions of the D.C. 
Circuit Court of Appeals mocking agency theories in terms of 
Alice in Wonderland, or unprecedented challenges to the 
previous Administrator from the professional science advisory 
boards, or the evaluations by GAO, or indeed the hearings of 
this very Committee. There is a long and very complete record 
of things having gone significantly wrong.
    As you and I discussed when you were a candidate for this 
office, we talked about the processes and the institutions that 
can help keep EPA on the straight and narrow. And one of them 
is the Inspector General. And throughout the difficult times 
that EPA experienced, we heard very little from the Inspector 
General. We had a candidate for that position who failed to 
clear, and from the very earliest moment, I urged that you 
consider this to be a priority position--get somebody very able 
in and move as rapidly on this as possible.
    What can you tell us now about the process of appointing an 
Inspector General for the EPA?
    Ms. Jackson. Senator, it remains a priority of mine. 
Sometimes in the appointment process, we hit a few road bumps, 
and I am--we are not quite back to the drawing board, but we 
are now interviewing some new candidates for the position. I am 
optimistic that we will be able to move along with the White 
House expeditiously to name a new Inspector General. It is a 
very important, very important position. I couldn't agree more.
    Senator Whitehouse. Well, this will be one of many 
inquiries I make about it, just to keep----
    Ms. Jackson. I appreciate that.
    Senator Whitehouse. You know of my interest in this 
question.
    More generally, we had a wonderful speech delivered by our 
President in Normandy. He talked about why the soldiers return 
to Normandy and tell their stories. The line in his speech was 
so people don't forget. And of course, he went to Buchenwald 
and also the whole message of the Holocaust is that it can 
never be forgotten.
    Now, nothing along that line happened at EPA. Things were 
much--it is a question of a whole completely different scale. 
But the question of so people don't forget that the President 
indicated, I think is an important one. And I also think, and 
colleagues may disagree, but I think that the things that went 
wrong at EPA were not only significant, but also unique in the 
EPA's history.
    It had a long history of being a proud, independent 
organization that irrespective of the political direction of 
the Administration, went ahead, did its job, played by the 
numbers, and made honest decisions.
    So I think the experience of the last 8 years is a 
significant one. It was particularly bad, particularly unique. 
Things went wrong, and I don't think we can just forget. And I 
would like to ask you what your view is on the question of so 
we don't forget; what role you think the I.G. might have in 
that; and whether there are any procedures in place within the 
EPA at this point to try to catalogue what took place so that 
there is an agency institutional memory of this. I think you 
and I share the belief that the better we remember this, the 
less likely it is to be repeated.
    Ms. Jackson. Yes, Senator. And we also share the belief 
that that is a very good role for an Inspector General once we 
have one, which is why it is such an important position. You 
know, we are all about looking forward at the EPA because we 
have such a tremendous workload in front of us for the American 
people.
    And yet, there should be some ability for us as an agency 
to look at our record, the totality of it, but certainly 
focusing on the court decisions and some of the more egregious 
examples of scientists who felt that they weren't allowed to 
speak.
    And I think the Inspector General could play a very strong 
role in doing that for the agency, while still allowing the 
agency scientists to move forward with their agenda, which is 
very important as well.
    Senator Whitehouse. Thank you, Administrator.
    Senator Inhofe.
    Senator Inhofe. Thank you.
    First of all, I referenced this letter that we had sent to 
you, and I would like to know. We are requesting a response by 
June 26. Will you do that?
    Ms. Jackson. Senator, I haven't seen that letter. If it has 
been received at the agency, it certainly hasn't made its way 
to me. It sounds like you are still having it signed. I am 
happy to review it.
    Senator Inhofe. No, we have already sent it. Now, maybe the 
agency didn't get it to you. It covers five areas, and even if 
it is a couple of areas where you are not going to, could we 
just get a response by the 26th, not expecting that every 
question is going to be answered, but it is going to take more 
time for this or this--just a response.
    Ms. Jackson. Not knowing what it says, I commit to you that 
we will timely in responding to your letter. What is today, the 
8th?
    Senator Inhofe. I don't know.
    Ms. Jackson. We will get you some response to your letter 
and it will be as responsive as we can be.
    Senator Inhofe. Now, I have applauded you several times, 
and I have quoted your quote when you say the American people 
will not trust us to protect their health and their environment 
if they do not trust the transparency, and so forth. And yet 
this Bob Dineen, the CEO of the Renewable Fuels Association, 
made this statement. He wrote, in talking about the lack of 
access to the EPA's modeling, he said, ``The inaccessibility of 
these models and the lack of clear and detailed documentation 
on how the various models and data sets were integrated appear 
to violate EPA's guidance regarding transparency.''
    Would you commit to allow full access to the assumptions 
and the inputs that developed the modeling? Do you have any 
thoughts about why this statement was made?
    Ms. Jackson. I don't know the gentleman. I don't want to 
try to get into his thought processes. What I can commit to you 
is that that modeling was done at the request of colleagues of 
yours in the House of Representatives. We were being responsive 
to their requests, as you are asking me to be responsive to 
yours, and I will certainly do that. But I have to respect them 
giving us input and asking the EPA to provide a service to 
Congress. That is part of our job and our function, and we are 
happy to do it.
    Senator Inhofe. All right. That sounds good. I wasn't going 
to ask this question, except the Senator from New Jersey piqued 
my curiosity on something that I think would be good to have on 
the record here.
    Science is an interesting thing. It is one that changes 
from time to time. Just as an example, many of the very top 
scientists throughout the world, such as Claude Allegre in 
France and David Bellamy in U.K. and Nir Shaviv in Israel, who 
at one time back during the initial Kyoto years in the late 
1990s were very, very strong in saying that anthropogenic gases 
cause global warming. Those same scientists, them and about 700 
other scientists, have now said no, we were wrong on the 
science at that time; we thought that was true and it is no 
longer true.
    In fact, the interesting thing I saw just last week is 
Sarkozy appointed Claude Allegre to be the Minister, I believe, 
of the Environment for France. I am not sure that is the right 
title, something like that. And here is a guy who is totally on 
the skeptic side of the science.
    I guess what I would say is we recognize that science--that 
there are interpretations. Science does change, and there are a 
lot of people who were immediately on one side that are now on 
the other side--just the recognition that science does change.
    Ms. Jackson. The recognition--I recognize that as we get 
more data, scientists are duty-bound to constantly be reviewing 
it and it may or may not change their position.
    Senator Inhofe. Very good.
    Ms. Jackson. On the issue of climate science, despite the 
fact that 700 sounds like a large number, the vast majority of 
scientists who work in the field, the scientific consensus, is 
still that anthropogenic causes are causing our climate to 
change. So I certainly, and you and I have discussed this 
before, Senator, recognize the need to keep an open mind and to 
look at information as it comes in. I am not a climate 
scientist by training, but I do respect the consensus that has 
been reached amongst them.
    Senator Inhofe. Yes, but as you say, as new data comes in, 
scientists do change.
    Last, the IRIS process that you are adopting here does 
overlook some steps that the previous Administration was 
criticized for, such as OMB and others. There have been several 
people in the scientific community that feel that the EPA is 
writing the science, reviewing the science, and declaring the 
science.
    Would you look at the--where is that chart? Well, the OMB 
part is in the post peer-review and several internal EPA steps. 
Would you look at the chart that was used prior to that and 
then respond to us in writing for the record which of those 
steps you are eliminating. Would you do that for us?
    Ms. Jackson. I am happy to do that, and I have looked at 
that chart in the development of the new process.
    Senator Inhofe. Yes, I know. Thank you.
    Thank you, Mr. Chairman.
    Senator Whitehouse. I thank the distinguished Ranking 
Member.
    I note with pleasure the arrival of our Chairman, who has 
contributed so much to keeping EPA within the proper bounds of 
scientific integrity and transparency. She has very courteously 
told me to continue following the early bird rule, so we turn 
now to Senator Udall.
    Senator Udall. Thank you.
    I think it is important for the EPA and this Committee to 
also consider the consequences of the Data Access Act and the 
Data Quality Act. As you probably know, Administrator Jackson, 
these two appropriations riders passed in 1998 and 2000. And 
they put federally funded science, which is either done by in-
house agency scientists or academics at a disadvantage to 
private sector for-profit science. These Acts give legal rights 
to regulated industries to file baseless attacks and delays 
against science supporting environmental regulation, without 
any penalty.
    In principle, data access is a good thing, but due to the 
successful efforts of industry lobbyists, industry gets access 
to Government and academic data being used for regulation, but 
not the other way around. The data is only flowing one way from 
the researchers to industry opponents.
    Using these Acts in 2003, the industry-funded Competitive 
Enterprise Institute filed a challenge to withdraw the National 
Assessment on Climate Change, despite that fact that it was 
heavily peer-reviewed, unlike the work of the think tank. The 
assessment was eventually published, but only after a fight.
    My question has two parts. First, in its review of 
scientific integrity at EPA, is the agency paying any attention 
to the impacts of these two Acts on the scientific basis for 
EPA's regulatory decisionmaking? And second, do any ongoing 
reviews underway at OMB promise to reform the way that these 
Acts are implemented?
    Ms. Jackson. The agency's review, Senator, of the impact of 
those Acts I think has been part and parcel of our work with 
the Office of Science and Technology Policy on implementation 
of the Presidential Memorandum on Scientific Integrity. So I do 
believe that there has been--I am looking for Kevin--some 
discussion of that as part of that process. And I would expect, 
because it affects us agency-wide, certainly EPA is one agency 
where there is a potential for great effect. We have been quite 
vocal in that process.
    Senator Udall. And as you know, when you pass 
appropriations riders, many times you don't get the full 
benefit of the experience of the Congress. So I hope that when 
you review these and look at these that you come back to us, 
and come back to this Committee and to the Congress with 
recommendations, changes to be made to make our scientific 
decisionmaking more effective, more fair to both industry 
scientists and Government scientists. Because I think that is 
ultimately where we are going to get the very best policy.
    Thank you very much.
    Ms. Jackson. Thank you, Senator.
    Senator Whitehouse. Excuse me.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I have a full statement if I could please put that in the 
record, and I have some question.
    Senator Whitehouse. It will be put in the record without 
objection.
    [The referenced material was not received at time of 
print.]
    Senator Barrasso. Welcome. I hope you had an enjoyable trip 
to Wyoming and had a chance to see some of the great beauty of 
the incredible State.
    Ms. Jackson. A beautiful State.
    Senator Barrasso. Thank you.
    I was looking at a New York Times article, and this was May 
20. It said, ``Vow of silence key to White House-California 
Fuel Economy Talks.'' And it starts by saying there was a 
simple rule for negotiations between the White House and 
California on vehicle fuel economy: put nothing in writing, put 
nothing in writing. It goes on and talks about decisions that 
nothing would be put in writing ever. And that was by Mary 
Nichols from California, talking about fuel standards and what 
was happening in the two States.
    When they say ``put nothing in writing ever,'' it also 
mentioned they didn't have any group meetings in discussing 
these fuel standards. And this was all in regard to approving 
vehicle emissions standards.
    Did you participate in any of these meetings between Ms. 
Browner and Ms. Nichols?
    Ms. Jackson. I don't think I participated in any meeting 
with the two of them. Certainly, EPA was integrally involved in 
development of those fuel emission standards and the 
announcement made by the President.
    Senator Barrasso. Well, this seems to imply that the 
decisions were all made in meetings that you actually didn't 
participate in at all. And yet if you look at the Clean Air 
Act, it says the Administrator shall, by regulation, prescribe 
and from time to time revise in accordance with the provisions 
of this section, standards applicable to the emission of any 
air pollutant from any class or classes of new motor vehicles 
or new motor vehicle engines which in the Administrator's 
judgment cause or contribute to air pollution, which may 
responsibly be anticipated to endanger public welfare.
    I mean, it goes on and on, but it says the Administrator 
shall, not Carol Browner. Under the law, wasn't this your 
decision to make? It seems that Ms. Browner is the one in 
charge and she has not been approved by the Senate, and not 
you, who were the administrator who we have confirmed to really 
run the Environmental Protection Agency, not an energy czar.
    Ms. Jackson. Yes, I think your question actually is based 
on a misunderstanding of the process here. First off, these 
were negotiations. I have run an enforcement program. I have 
been involved in numerous negotiations, and negotiations demand 
a level of trust among the people around the table. We were 
talking about the auto industry. We had 10 CEOs who joined the 
President for that announcement. We had the unions. We had the 
State of California who have done path-breaking work on auto 
emissions standards. We had EPA and we had the Department of 
Transportation. Those discussions EPA participated in from a 
technical standpoint in order to give information on things 
like from our Ann Arbor lab, the costs or the feasibility of 
various types of controls on engines.
    But to imply that the kind of secrecy that goes with 
negotiations so that people can speak freely to each other 
somehow is lack of scientific integrity is just a 
misunderstanding of the process.
    Senator Barrasso. But this is a hearing on transparency. 
What we are dealing with here is with transparency, and I want 
to know where the buck stops. Does it stop with you or does it 
stop with Ms. Browner? Because this talks about, I mean, 
specifically the New York Times article on May 20, it was then 
that Nichols and Browner decided to keep their discussions as 
quiet as possible, holding no group meetings, none at all. And 
then they, quote Ms. Nichols as saying, ``We put nothing in 
writing ever.''
    CNN this week had a story on Friday about the number of 
czars running this Administration instead of the people that 
are confirmed by the Senate. And I have great concerns in an 
Administration that says, we want transparency; we want to be 
open; we want the American people to see what exactly is going 
on.
    What the New York Times article speaks about are secret 
meetings, private meetings, hidden meetings, and that you, as 
the Administrator of the Environmental Protection Agency, were 
not even involved in, even though is affects specifically the 
areas that the laws of the Nation say you are to oversee.
    Ms. Jackson. To state again, my staff, certainly high-level 
members of my staff, were involved in the Auto Task Force, as 
well as on the subcommittees that were working specifically on 
this particularly thorny issue. This issue is one that demanded 
a cry for coordination at the White House level because it 
involved two agencies of the Federal Government, DOT and EPA, 
along with a State and 12 other States or more who had decided 
to join with California.
    And so I don't want to be left with the impression or the 
sound bite that somehow EPA wasn't involved in the process. We 
clearly were. The negotiations that led to the path-breaking 
agreement that the President announced took time and it took 
energy and they were handled out of the White House.
    Senator Barrasso. Are you saying the staff was in charge 
then? I am still confused by this, and I see that my time has 
expired, but thank you very much for your comments.
    Ms. Jackson. Thank you.
    Senator Whitehouse. Thank you, Senator Barrasso. I 
apologize for holding to the clock, but the Administrator has 
an appointment at the White House so I am trying to get 
everybody a turn in before she has to leave.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Administrator Jackson, it is a pleasure to have you before 
our Committee.
    I want to touch on a couple of issues. First, the Clean 
Water Act. I am very interested in effective policies 
concerning clean water in America. I had the responsibility to 
chair the Subcommittee, and it seems to me that the Supreme 
Court decisions on jurisdiction has made it extremely difficult 
for you to achieve, for us to achieve the goals set out in the 
Clean Water Act based upon good science information.
    And I would just ask for your help. I know we have talked 
about this before. And giving us the strategy so that we can 
allow science to dictate our policies in this Country, at least 
advise us as to what we should be doing on clean water. We have 
a tremendous interest in my State, as you know, with the 
Chesapeake Bay and I think this is important throughout our 
Country, and just urge your attention to a strategy that will 
allow us to return to good science in helping us develop the 
policies for clean water in this Nation.
    Ms. Jackson. I am happy to do that, Senator.
    Senator Cardin. Thank you.
    I want to turn your attention to mountain-top removal of 
coal. Senator Alexander and I have filed legislation in regards 
to this as one of the most destructive practices in the world 
for extracting minerals. It is controlled not only by the 
Surface Mine Control and Reclamation Act, but also 404 permits 
under EPA. So you have a direct interest in this area.
    I think it is pretty intuitive that drinking brown water is 
not healthy for you, as it gets darker and darker. But we now 
have some empirical evidence on health results of communities 
that are affected by this mountain-top mining, and would just 
urge you to get us the best science information possible so 
that we can make the right decisions. I know that there is a 
lot of interest involved here, but public health dictates that 
we take action.
    Ms. Jackson. Thank you, Senator. I don't want to eat up all 
your time, but thank you for giving me just a minute to address 
that.
    I think that those who are most concerned about this issue 
probably do have a valid concern that EPA can be more 
transparent in the review processes it uses to judge the 
potential clean water impacts of these projects. Once again, 
EPA's role here is to look at what impacts these projects 
potentially have on water quality, and the law says there can 
be no significant degradation. And I think it is valid for 
people to say, what does that mean and how are you judging 
that.
    So the commitment I would like to make to you is that we 
will get better information out there and increase the 
transparency of our process so that people don't have to guess 
what it is EPA is thinking or what our scientists are using to 
make judgments on any particular permit.
    Senator Cardin. That is fair enough. That is what we want. 
We want to see transparency. We want the information to be made 
available to us. We want to make the best judgments based upon 
the information that is available. And I think in this area of 
mountain-top mining, it is going to become obvious, but we need 
transparency in the process.
    Later on the third panel, a distinguished person from 
Maryland will be testifying once again before our Committee, 
Dr. Lynn Goldman, and I welcome here to the Committee, a 
Professor, Environmental Health Sciences, Johns Hopkins 
University. She testified last year before our Committee and 
talked a little bit about some of the problems of the previous 
Administration.
    The specific issue I want to talk about is a comment made 
in that statement where she discussed concerns about changes 
that have been made in EPA's integrated risk information 
system, IRIS, that opened the door for interference by Federal 
agencies like the Department of Defense, who are responsible 
for waste cleanups in communities and have an interest in 
delaying action.
    I just want to use my last 50 seconds I have left just to 
compliment you and your agency for the manner in which you have 
worked with the Department of Defense. We are making progress 
in Maryland as a result of cooperation now between agencies. 
And that is good news, and I just really wanted to compliment 
the early action of your agency in trying to work out 
differences with other Federal agencies so that communities can 
get the benefit of cleanup where it is needed, and we are 
making progress now at Fort Meade that was not made before. So 
thank you very much.
    Ms. Jackson. Well, and thank you for your advocacy on 
behalf of the people of Maryland.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Whitehouse. The distinguished Senator from New 
Jersey, Senator Lautenberg.
    Senator Lautenberg. Thank you. Thank you, Mr. Chairman. It 
shifts very transparently, but always good chairmen on this 
Committee because this Committee is driven by truth and candor, 
and that is the way we want to do it. Certainly, that is the 
mantel that you have adopted, and we appreciate it greatly.
    I introduced the Kids-Safe Chemicals Act. It would force 
companies to conduct and submit studies on the safety of 
chemicals. Would that help ease your task in monitoring what is 
going on there?
    Ms. Jackson. The work you have already done, Senator, on 
leading the charge to ask tough questions about the Toxic 
Substances Control Act, about who should be responsible for 
getting the best data to EPA and about EPA's role, is extremely 
important.
    EPA hasn't taken, but I hope will soon take on behalf of 
the Administration, a formal position on the legislation. But I 
think there is much to applaud in the idea that the American 
people are ready, and I think maybe even hungry, to know that 
the Government is ramping up its attention to the evaluation of 
chemicals before they end up in products that are used by our 
children or by our families.
    Senator Lautenberg. I wrote a law that is referred to in 
its simplest form as the right to know. And it mimicked, if I 
may say, what was law in New Jersey, and people had a right to 
know and it was very helpful to us even though it had little or 
no penalty except public knowledge. It worked wonders. And this 
is something that the past Administration has continued to chip 
away at, and see if we could reduce that requirement. Well, we 
don't want that to happen.
    In 2006 and 2007, the EPA completed only four chemical risk 
assessments, despite a backlog of more than 70 chemicals. In 
fact, 69 percent of outgoing assessments have been in progress 
for more than 5 years.
    What might you do to speed up the pace of risk assessment 
at EPA, while you are maintaining the quality standard that you 
have set?
    Ms. Jackson. The risk assessment process at EPA was 
previously taking close to 10 years, if you looked at how long 
it was taking to get some assessments out. We have now 
committed to a new IRIS process that would take about 23 
months, Senator. And our idea there is that you can invite 
rigorous public discussion. You can invite all kinds of input, 
including input from fellow agencies like the Department of 
Defense, but it will be on the record. Everyone will be able to 
see those comments, and EPA will control the final decision.
    And the reason that is important is to ensure that we don't 
end up in endless debates back and forth at the expense of 
American's health while they wait and wait and wait for 
somebody in the Federal Government, and it is really EPA's role 
to do it, to speak on risk of any particular chemical.
    Senator Lautenberg. I would ask you a question about 
Superfund. You are intimately knowledgeable about what the pace 
of Superfund cleanup has done. I picked up kind of management 
of the law from Governor Florio, Jim Florio, who wrote the 
Superfund law in 1980. It took us a long time to learn how to 
do the job properly.
    It took a long time to get people trained. We have always 
managed, in my view, to get loyal and competent people in 
positions of importance in Government. I find the commitment to 
the work is far more binding than that which I have found in 
the private sector.
    What do you think we might be able to do pace-wise if we 
could reinstate the polluter pays obligation?
    Ms. Jackson. Well, reinstatement of that obligation 
obviously is the first step, because it means a constant steady 
stream of a known amount of money to these cleanups. One of the 
things that has happened over the past year is this kind of, 
you know, giving different sites allowances and trying to 
figure out what is the minimum amount necessary to keep the 
cleanup going.
    But I know you and Chairman Boxer have asked some very hard 
questions that I haven't yet fully answered about expressing 
your frustration with the pace of cleanups, the number of 
construction completions going down, and finding ways to see 
that number rise back to the levels we saw even 10 years ago.
    And so, I am committed to trying to find those answers. I 
don't have them today. I did commit to the Chairman that we 
would do that work, and Mathy Stanislaus, thanks to the 
Committee, and your confirmation by the full Senate, has 
started actually I believe yesterday as head of the Superfund 
program, of OSWER, and that is certainly one of his charges.
    We have to be creative and innovative, but we need to keep 
these cleanups moving. And I can tell you, going around the 
Country now and having events with Recovery Act money and 
seeing the joy, the literal joy in communities when you come 
back to them and say not only are we back with a little money, 
we are back with enough money to change the cleanup schedule.
    I could do that all day long. I wish it was my only job.
    Senator Lautenberg. Thanks very much.
    I would just close, if I might take 1 second.
    Senator Whitehouse. The Senator's time has expired.
    Senator Lautenberg. Cruel behavior.
    [Laughter.]
    Senator Whitehouse. It is, but it is 10:31. The 
Administrator has to get to the White House, and I will ask her 
if she could give 5 minutes to the Chairman. We will then 
conclude.
    Ms. Jackson. Absolutely.
    Senator Boxer. OK.
    Because of time, I just want to say that I will be 
submitting my questions to you for the record. Some of them 
follow up on Senator Lautenberg's questions. But I just feel I 
want to respond to Senator Barrasso in his anxiety over your 
not doing enough, if that is what he was trying to say, and say 
that I don't think in all my years, I have ever encountered an 
Administrator who hit the ground running the way you did. And 
thanks to this President for getting this appointment right.
    I will just give a few examples. Air testing near schools, 
you promised you would do it. You started it right away, so 
that we can know if our kids are being exposed to toxics. 
Investigating the coal ash waste nationwide, and we are working 
very closely because we are very concerned about disasters 
waiting to happen all over this Country, and we are working on 
that.
    You hired an expert on children's health, reporting 
directly to you, and we have had meetings in my office about 
how to do more, and Senator Lautenberg, even though he is 
chafing at not being able to talk a little longer, I want him 
to know how proud I am of him in his work to protect kids. And 
this kids' safety law is essential. And as Chairman, I commit 
myself to moving on this.
    I think Senator Whitehouse's new chairmanship for Oversight 
is being proven that this was a great decision of this 
Committee, because he will be working directly with you as 
well.
    You also announced the review of the waiver, and that set 
off, you know frankly, the negotiations that Senator Barrasso 
criticized. Why is the party of no criticizing the fact that we 
resolved an enormous dispute between the Federal Government and 
19 States, or let's say 18 States, that were very upset that 
they couldn't do more on fighting global warming through 
vehicle emissions?
    And the fact that of course you were at the table, but this 
did require the White House because, as you pointed out, there 
were so many parties involved, the DOT, the EPA, the autos, all 
the States. And you know, we should say hooray because now 
these lawsuits are being dropped, and yes, maybe not a lot was 
put in writing. Maybe there was a concern because there were a 
lot of lawsuits out there. The fact is, we should be very 
pleased.
    And of course, your work on the endangerment finding, the 
proposed one that I think is leading us to hopefully a way to 
deal with greenhouse gas emissions; the IRIS risk analysis 
process that you have changed.
    So I just want to say, you know, I could not be more 
pleased. And then I am going to in my last 2 minutes just make 
a couple of statements from my opening statement.
    Science had clearly been under siege when you took the 
reins. From clean air to perchlorate to children's health, I 
believe decisions that should have been based on science were 
based on politics and the polluters were running the show. This 
is my opinion and I would be glad to go toe to toe with anybody 
who thinks differently. You know, that is why the whole IRIS 
program was so derailed because we put the polluters at the 
table. And the fact is, it is the EPA's job to clean up the 
environment. It is not the Environmental Pollution Agency. It 
is the Environmental Protection Agency. And I am so proud of 
the work you are doing.
    And I also want to thank Senator Inhofe, he is in there, 
out there somewhere, because when it came to giving you the 
political appointees that you need and that the President had 
sent down, he has been most cooperative. And we were able to 
get Gina McCarthy through after a little bit of a fuss and a 
fight. We have some of the others done, Tom Strickland. And I 
have to say that Senator Inhofe has not been obstructionist, 
and I appreciate it so much.
    So I just want to thank you, Administrator, for your 
openness, your honesty. You just come and you look us all in 
the eye regardless of whether you agree with us. You tell us 
what you think. You are also willing to have an open mind for 
all of us. And what more could we ask from you?
    But I just wanted to counter Senator Barrasso's point, if 
you heard him and didn't know you, you would think he was 
talking about somebody else. You couldn't be stronger or more 
assertive in implementing your responsibilities under the law.
    And I want to thank again Senator Whitehouse for working 
with me to create this Subcommittee, because this oversight is 
essential. You have so many issues on your plate and so many, 
frankly, dangerous problems that you are dealing with, problems 
that have been neglected.
    So we will work with you in the future, as we have going 
into this, and I am very proud of the work you are doing.
    And I thank you, Senator.
    Senator Whitehouse. On that happy note, the Administrator 
is excused for her engagement at the White House. I thank her 
very much for her attendance and her testimony, and hope I have 
not caused too much anxiety on the part of her staff who 
urgently are signaling that she needs to be on the way.
    Senator Boxer. Will you tell the President we all want you 
to have more input? Tell him that Senator Barrasso is very 
worried, and he should listen to you.
    [Laughter.]
    Ms. Jackson. I will, but he will say, what, more? How much 
more can I possibly give you?
    And you know, just to have a second. Senator Barrasso is 
gone, and I am sorry to hear that, but you know, I just want to 
say for the record, of course EPA was there. We were hands-on 
at the table. To take Mary Nichols' quote, and we both know 
her. Someone should ask her what she meant, but certainly EPA 
was integrally involved in this ground breaking.
    And I agree with you. I don't know how you get bad news out 
of that announcement. That announcement took every single 
constituency who might be worried and said, this is a good 
thing for us, for our businesses, for our unions, for the 
American people.
    So I just think that that process is an example of how 
EPA's science came to the fore, and how our experts and our 
people who work so hard got an opportunity to see a happy day. 
No one was happier than those scientists on that day.
    So thank you very much, Madam Chair.
    Senator Whitehouse. The next panel consists of John B. 
Stephenson, the Director, Natural Resources and Environment, at 
the U.S. Government Accountability Office.
    Director Stephenson, welcome.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Mr. Chairman, Ranking Member Inhofe, and 
other Members who are here, I am pleased to be here today to 
discuss the importance of scientific integrity and transparency 
at the EPA.
    My statement is based on our past work on both EPA's 
integrated risk information system, or IRIS, and EPA's Federal 
advisory committees and their use, such as the Science Advisory 
Board.
    Our work last year on IRIS, as you remember, which is a 
data base that contains the agency's scientific position on the 
potential human health effects of more than 540 chemicals, 
identified significant concerns about both the lack of 
transparency in the process and the resulting effect on the 
credibility and integrity of these assessments.
    We noted that the consequences of these problems were very 
serious because IRIS assessments, after all, are the 
cornerstone of EPA's ability to ensure scientifically sound 
environmental decisions, policies and regulations. We also 
found that the timeframes for completing assessments were 
unacceptably long, often taking over a decade to complete. In 
many cases, assessments became obsolete before they could be 
finalized and were stuck in the endless loop of assessment and 
reassessment.
    Last year, we testified before this Committee about EPA's 
lack of progress in streamlining IRIS and our frustration in 
its lack of response to our recommendations. Indeed, the 
process that EPA unveiled in April, 2008 a year ago was a step 
backward and worse than the one it replaced.
    As a result of this serious and seemingly intractable 
problem, we added IRIS to GAO's January, 2009 report on 
Governmentwide high-risk areas needing increased attention by 
executive agencies and the Congress.
    Today, I am pleased to report that while it is too soon to 
offer a blanket endorsement, the new IRIS process introduced by 
EPA on May 21 of this year appears to be a step in the right 
direction. In particular, we are pleased that the new IRIS 
process, if managed effectively, will be largely responsive to 
the recommendations we made in our March, 2008 report.
    First, the process will be managed by EPA, rather than OMB, 
as the former process was. Second, it addresses a key 
transparency concern by expressly requiring that all written 
comments provided by other Federal agencies on draft IRIS 
assessments be part of the public record.
    Third, the new process streamlines the previous one by 
consolidating and eliminating several steps. Most importantly, 
the step under which the Federal agencies could have IRIS 
assessments suspended in order to conduct additional research, 
a step which would have defeated the intent of basing IRIS 
assessments on the best available science.
    And fourth, the request for an increase of $5 million and 
10 additional staff positions will help ensure that more 
resources are allocated to the IRIS program to meet user needs. 
Of course, the ultimate success of IRIS will depend upon how 
effectively EPA implements the new process.
    While these changes reflect a significant improvement that 
can help EPA restore the integrity and productivity of this 
critical program, we believe additional clarification is needed 
for some elements of the new process. Specifically, it is not 
clear whether significant agreements reached among the Federal 
agencies during interagency consultation meetings will be 
documented in the public record. Nor is it clear to us why 
comments from other Federal agencies cannot be solicited at the 
time the initial draft is sent to independent peer reviewers 
and the public.
    These changes would enhance transparency, further reduce 
the overall assessment timeframes, and provide greater 
assurance that the draft had not been inappropriately biased by 
policy considerations of agencies affected by the outcome, such 
as the Departments of Defense and Energy.
    Finally, it is unclear whether or how OMB or other White 
House offices will be involved in the new process.
    Switching gears a bit, I would like to briefly summarize 
our work on EPA's scientific advisory committees and offer some 
cautions about how they are formed and used. EPA currently has 
24 separate Federal advisory committees that help ensure 
scientific integrity by providing advice and expert peer 
review. We have made a number of recommendations to EPA to 
improve the independence and credibility of peer review panels 
convened by the Science Advisory Board, one of EPA's largest 
and most prominent Federal advisory committees.
    EPA implemented our recommendations, enhancing its 
assurance that relevant conflicts of interest are identified 
and addressed, and that the committees are balanced in terms of 
points of view. However, we believe that wider use of these 
same policies and procedures by EPA's other scientific advisory 
committees could help more broadly ensure that committee work 
is not jeopardized by allegations of conflicts of interest or 
bias.
    We also believe that there are opportunities for EPA to use 
its scientific advisory committees, such as the Children's 
Health Advisory Protection Committee, more effectively and 
proactively than they have in the past.
    Mr. Chairman, that concludes a summary of my statement. I 
will be happy to answer questions that you or other members of 
the Committee may have.
    [The prepared statement of Mr. Stephenson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you very much, Director.
    Let me first tell you how much we appreciate the work that 
you did back in, I guess, 2008, on the original IRIS process, 
which as GAO found lent itself to interference, perhaps even 
capture, and was not consistent with the transparency that one 
expects for this type of determination, where the life and 
health of Americans will be at stake.
    So it was good work. We appreciate it. And I am delighted 
that you have come back to review the remedy, and I think the 
recommendations that you make for EPA are very helpful on that.
    I would like to follow up a little bit on this question of 
the science advisory boards. You have indicated a distinction 
between two methodologies. One is a sort of representative 
methodology where you get an industry scientist and somebody 
else and they become proxies for different interest groups. And 
the other is a process whereby you try to get people who are 
the best scientists and you bring them in to give their best 
judgment. And that those are two different approaches.
    When Administrator Johnson was in charge, we often heard 
that where there was some uncertainty or where there was some 
doubt, that created a range of reasonable decisionmaking for 
the Administrator and he could therefore decide, based on the 
doubt, to err, say, toward the industry side of the equation.
    It strikes me that there is a circularity here. If you use 
the representative model, bringing in scientists who would 
ordinarily have a conflict of interest, but are exempted from 
conflict of interest rules in order to provide the industry 
point of view, and they conflict with the legitimate science or 
with the environmental science point of view, by using that 
representative mechanism, you have created doubt in your 
science advisory panel.
    And now you are in a position to say, aha, there is doubt 
about the science from the scientific advisory panel, and 
therefore I now have authority not to go where the science 
would ordinarily dictate.
    And it seems that there is almost a feedback loop between 
the Administrator's discretion to avoid the science based on 
doubt and uncertainty, which he referred to over and over again 
in hearings, and the doubt and uncertainty that is inherently 
created when you have this turned into kind of a mini-
legislative body instead of a peer science body.
    Would you comment on that?
    Mr. Stephenson. Yes. I think both roles are appropriate. I 
mean, you want representative scientific advisory committees to 
represent special groups, industry or whatever. That is 
appropriate. But you also want a set of advisory committees 
that are advising the Government. They are special Government 
employees, if you will, on the integrity in the science. And 
our only caution is that you shouldn't confuse the two types of 
groups and you should use them appropriately.
    We think as a general rule that having stronger conflict of 
interest policies and procedures for assigning the members or 
selecting the members of those committees are nevertheless 
still important.
    Senator Whitehouse. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    You had stated in your opening statement, Mr. Director, 
that the IRIS approach now is a step in the right direction. 
And I notice that Chairman Boxer and I both have this same 
chart. This is one that was put together of the revised IRIS 
process post-April 10th of 2008.
    Now, we are supposedly streamlining the way it assesses the 
health effects of chemicals. The EPA is removing some of the 
steps of the integrated risk information system review process. 
That is what we are talking about here, some of the steps.
    Now, it looks like a busy chart. It looks like a lot of 
steps, probably a lot of them I would find that were not 
necessary. But EPA specifically is cutting back internal EPA 
review. It is cutting back peer review, cutting back OMB 
review, and cutting back the international partner review.
    Now, if they are cutting back all of these, why do you say 
that is a step in the right direction?
    Mr. Stephenson. Well, I don't think they are cutting them 
out entirely. In our view, and this is a preliminary view, they 
have consolidated some of those assessments that the other 
Federal agencies will provide.
    Senator Inhofe. OK. Well, specifically, look at the OMB 
interagency review and the revised assessment post-peer review. 
Where were they combined with something else to preserve the 
integrity of their review?
    Mr. Stephenson. Well, in our view, they could consolidate 
the agency input as well as the industry input and any other 
stakeholder input at the same time, and consider those and do 
it in a very public way. All the research and information 
provided by the Federal agencies, as well as any other 
stakeholder, could be considered at that time.
    Senator Inhofe. So you are saying that there is OMB 
interagency review now, in this revised IRIS system that is in 
place today?
    Mr. Stephenson. What we are saying is it is not clear how 
the White House offices will be involved in this particular 
process. And we think that needs to be clarified and that needs 
to be strengthened. We are certainly not against agency input 
to the IRIS process. It just should be scientific research, the 
same as any other stakeholder should be. It should be done in 
public, very transparent.
    Senator Inhofe. OK, I would like to ask the same thing of 
you that I did of the Administrator, that you would submit in 
writing, for the record, which of these steps that were in this 
chart that you have seen and have worked with, that are 
eliminated or combined, and where they are combined. Would you 
do that?
    Mr. Stephenson. We will be happy to do that.
    Senator Inhofe. OK. Some comments were made by Senator 
Whitehouse about the science. He referred to industry science 
and environmental science. Is it your effort? I think we are 
all interested in having both sciences, as they are kind of 
conflicting sciences.
    Mr. Stephenson. Absolutely.
    Senator Inhofe. Would it be your wish, whether it is on a 
scientific advisory board or elsewhere, to have equal input if 
we are characterizing by either environmental or industry? My 
personal feeling is there shouldn't be a difference. Science 
should be science and it should be blind to industry and 
environment.
    Mr. Stephenson. I absolutely agree. IRIS is supposed to be 
a collection and synthesis of the available science on a given 
chemical at a given time, and certainly everybody has a 
research and science that is relevant to that. I don't make a 
distinction between industry science and environmental science.
    Senator Inhofe. But if some of the scientists come from an 
association or an industry that could be made appear to be 
prejudiced, would you make the effort to have the other side 
also?
    Mr. Stephenson. Absolutely. That is written out in the 
scientific advisory committee rules that you should have all 
points of view equally represented.
    Senator Inhofe. All right. Thank you very much.
    Mr. Stephenson. Certainly.
    Senator Whitehouse. Chairman Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Senator Whitehouse. How unusual for me to be able to call 
on you.
    Senator Boxer. Well, thank you very much. I greatly 
appreciate it.
    Let me just say to GAO and to you personally, Mr. 
Stephenson, a great big thank you for the work that you did, 
because when I called you in here and we found out what was 
going on, there was some grave concern. And I don't disagree 
with anything Senator Inhofe said, but that's not what was 
going over there.
    And this is what the process was when you took a look at 
it. By the way, this is only part of it, because here it says, 
Federal agencies identify mission-critical chemicals, and if no 
new studies, then go to step 14. Step 14 isn't even on here 
because they didn't have space for it, so there is more. And 
then over here it says, public listening session for comment on 
draft assessment announced in FRN in step 17(a). And that's not 
even on this particular sheet.
    So what was going on over there? If I could just say what I 
would have entitled this thing, it is how to kill scientific 
risk assessment. That is what I think was going on. They were 
killing it. They were killing it by dint of the process. They 
were killing it by inviting the polluters to the table. That is 
not what this is.
    I want to protect my little baby grandson from getting 
cancer from a lot of chemicals that are out there. I know we 
all feel the same way. So therefore, I want a system based on 
science, not based on politics, not based on having the 
polluter at the table. Of course, they are going to argue that 
their chemical is safe. We saw the makers of arsenic say that 
their chemical was safe. So they are all going to say it is 
safe.
    Well, now we have a new assessment. It is understandable to 
people. It is streamlined, which I would think the other side 
would like. And the question that Senator Inhofe asked was 
fine. He said, how do we get the other agencies in? It is right 
here in step 6(b), EPA-led interagency scientific discussion. 
And therefore, they are going to listen. But EPA will lead it. 
They are not going to let these other folks lead it.
    So let me ask you a couple of questions in my remaining 
time. Do you think in general, and I get your specific 
criticism of EPA and I think they have to address them, but do 
you think in general that the most recent changes help to 
ensure transparency when developing IRIS assessments and the 
changes ensure that EPA controls the development of such 
assessments, rather than having the polluters control it?
    Mr. Stephenson. Well, we are GAO, so we are naturally 
skeptical, and we reserve judgment to see how it is 
implemented. We think that is very important. But in general, 
it does allow for all of the research considered in the IRIS 
process to be publicly available equally, whether it is an 
agency or an industry or any other environmental group.
    Senator Boxer. Good. And of course, it has to be 
implemented right. And in your own report here, which the 
Chairman has handed me, the IRIS reforms, if implemented 
effectively, will represent significant improvements. Among 
other things, they restore EPA's control of the process and 
increase transparency.
    But your hesitation is that it has got to be implemented in 
the right way. Correct?
    Mr. Stephenson. Correct. And we do say that it does go 
toward implementing most of the recommendations that we made in 
our April, 2008 report. We just haven't done a full analysis of 
it.
    Senator Boxer. How long will you need until we call you 
back to let us know if you think they are implementing it 
effectively? Will it take 6 months, a year? Because we want to 
stay on top of it through this Oversight Subcommittee.
    Mr. Stephenson. We want to see what kind of progress they 
make on the first problematic assessments of some chemicals 
that have been in the process for over a decade. Now, maybe 
they have been in a decade for very good reasons, but in 
general, we want to see if the Administrator can meet her 
commitment of 23 months on average for an assessment. So I 
would say at least a year.
    Senator Boxer. So, we will have you back in a year to see 
what the progress is.
    Senator Whitehouse, I hope that you will do this in a year.
    Now, last question. In your opinion, how important is it to 
ensure that scientific panels base their decisions on the best 
available science, not other considerations? Could agencies 
improve their methods for ensuring the use of the best 
available science?
    Mr. Stephenson. Absolutely. We think that there are many 
EPA advisory committees. And as I said, they serve multiple 
purposes. The best available science is for the FACA Committee 
that is an important goal. And we have noted in the past that 
EPA can use these advisory committees more effectively and 
proactively than they have in the past. So we will be watching 
that as well.
    Senator Boxer. OK. Let me say finally, again, you know, 
there is a lot of times you do a lot of reports and nothing 
much happens, and I don't like that. This time, a lot has 
happened and implementation is the key, but you have to feel 
good that you made a big change happen here in the IRIS 
program. So I just want to thank you.
    Mr. Stephenson. Thank you. That is our job.
    Senator Whitehouse. And now finally the distinguished and 
very patient Senator from Delaware, Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Mr. Stephenson, welcome. It is good to see you. Thank you 
for joining us today and for the work that you and your 
colleagues at GAO do.
    As you know, the EPA's integrated risk information program 
and its data base contain the EPA's scientific position on the 
potential human health effects of exposure to I believe more 
than 540 chemicals. And you stated before that the system has 
received an increase in funds and in resources, but we still 
have some ways to go to have all the information we need in 
order to fully understand the true human health impacts of 
certain chemicals.
    I am concerned that the missing data in IRIS will delay air 
toxic policy decisions. And first of all, let me just ask you 
to just talk with us about is there a better way to collect 
this information; what are some of the options; how are we 
collecting that information now; how might we collect it more 
prudently in the future.
    Mr. Stephenson. Of course, assessments of air toxins are 
also some of those 540 that you mentioned. And what we said in 
our 2008 report is that early planning could really help if EPA 
on either a two or even a 3-year window out could identify, 
along with the program offices within EPA, the assessments that 
were vitally needed to implement the air toxics program and 
other Clean Air Act programs.
    We think that would go a long way to informing the research 
community what was going to be needed such that it would be 
available when the IRIS assessment on that particular chemical 
started. We think that would go a long way toward streamlining, 
making more efficient the overall assessment of all chemicals, 
including air toxins.
    Senator Carper. Now, who have you shared that notion with?
    Mr. Stephenson. We actually recommended that in our 2008 
report on IRIS. And early planning can really help in that 
regard. We had I think 15 or 20 recommendations in that report 
for improving the then-IRIS process.
    Senator Carper. And who at EPA has responded to those 
recommendations in that report?
    Mr. Stephenson. They haven't been responded to specifically 
in detail. There is a 60-day requirement for all Federal 
agencies to respond to GAO recommendations and provide that 
information to the Congress as well. And we haven't done as 
good a follow up on that as we could have. We are in the 
process of doing that now to see exactly what has been done 
toward each of those recommendations.
    Senator Carper. Has the 60-day clock already run?
    Mr. Stephenson. Oh, yes. That was an April, 2008 report.
    Senator Carper. Well, we are coming up on a 460-day clock. 
Is that right?
    [Laughter.]
    Senator Carper. OK. Of the recommendations that were 
included, did you say 20?
    Mr. Stephenson. I am doing it by recollection, but there 
were a lot.
    Senator Carper. But what were some of the most important 
ones? You may have said this already.
    Mr. Stephenson. Well, early planning. We highlighted the 
need for transparency. We don't have objections to anybody 
providing research for EPA to consider on a given chemical. We 
just think it should be very transparent. The research should 
be publicly available for the whole scientific community to 
look at. We offered lots of opportunities for streamlining the 
process, eliminating what we thought as redundant steps or 
unnecessary steps.
    So they went the whole gamut of what we called a broken 
system back a year ago.
    Senator Carper. I presume that there has been an informal 
dialog back and forth between GAO and EPA over the last years. 
Is that true, on these points?
    Mr. Stephenson. Somewhat. I mean, we don't have specific 
work going on IRIS right now, looking at the new process. We 
think, and as I think the Committee thinks, it is better to 
give the EPA a little bit of opportunity to respond to the 
process that they just introduced May 21st, and implement it, 
and then we think it would be appropriate for you all to 
request GAO, for us to take another look at IRIS down the road.
    Senator Carper. You just kind of answered the last question 
I was going to ask, what should we be doing differently, or to 
follow on?
    Mr. Stephenson. I think just holding oversight hearings 
like this, keeping the hearings process going; continuing to 
emphasize scientific integrity; and look at all the individual 
elements of the agency process that result in good integrity at 
the agency. I think we are making progress. I think we are on 
the right track.
    Senator Carper. OK. And my last question is, what kind of 
job do you think that Senator Whitehouse is doing in chairing 
this hearing today?
    [Laughter.]
    Mr. Stephenson. An absolutely splendid job.
    [Laughter.]
    Senator Carper. I think he is doing his best.
    Senator Whitehouse. That may need further investigation.
    Senator Carper. I have never seen him quite this good.
    So thank you for joining us today.
    Mr. Stephenson. Thank you.
    Senator Carper. Senator Whitehouse, thank you for pulling 
us all together.
    Senator Whitehouse. Thank you very much, Senator Carper.
    Thank you, Mr. Stephenson. You are excused, but with the 
appreciation of the Committee for a job well done. And I think 
as the Chairman said, you must feel considerable satisfaction 
in seeing such swift results under this Administration of the 
recommendations that GAO offered in the past. So again, 
congratulations and well done.
    Mr. Stephenson. It is nice to see you all use our work.
    Senator Whitehouse. While the next panel is joining us, I 
will add to the record of these proceedings, without objection, 
a letter received from John Holdren, the Assistant to the 
President for Science and Technology and the Director of the 
Office of Science and Technology Policy, who overseas official 
travel makes his appearance at this particular hearing 
impossible, but who wrote to let us know of the importance that 
the President places on this topic, and to inform us of the 
important work on scientific integrity that the President has 
asked the Office of Science and Technology Policy to lead, in 
particular OSTP's assembly of a task force representing all 
departments and agencies with what are described as 
``considerable'' scientific missions.
    [The referenced document follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. The task force has, in the Federal 
Register, filed a notice requesting public comments on the 
President's memorandum and its six guiding principles. If 
anybody wishes to comment into that process, the email address 
is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4437272d212a302d222d272d2a302123362d303d042b3730346a232b326a">[email&#160;protected]</a> And he encourages public input 
so that the process of continuing to enhance transparency and 
scientific integrity in this Administration can continue 
forward.
    And now it is my pleasure to welcome Dr. Grifo, Dr. Green 
and Dr. Goldman. You seem to be narrowed in a short bandwidth 
of the alphabet today. But we are delighted to have you with 
us. We appreciate the work that you have done in the past, and 
I turn the hearing over to you for your statements.
    Dr. Grifo.

 STATEMENT OF FRANCESCA GRIFO, SENIOR SCIENTIST AND DIRECTOR, 
  SCIENTIFIC INTEGRITY PROGRAM, UNION OF CONCERNED SCIENTISTS

    Ms. Grifo. Good morning. My name is Francesca Grifo, as you 
have said, and I am a Senior Scientist and Director of the 
Scientific Integrity Program at the Union of Concerned 
Scientists, a leading science-based non-profit working for a 
healthy environment and a safer world.
    Thank you, Chairman Boxer in absentia, Chairman Whitehouse, 
and the Ranking Members, also in absentia, and the members of 
the Committee for the opportunity to speak to you this morning.
    The U.S. Environmental Protection Agency is at a 
crossroads. The EPA is emerging from a period where agency 
science was often a casualty of political decisions made behind 
closed doors. Our research documented that 889 scientists 
personally experienced at least once incidence of political 
interference between 2002 and 2007.
    The current Administrator, Lisa Jackson, has reversed 
course on many of the most egregious of these decisions and has 
spoken eloquently about the central role of science and 
transparency in her vision for the EPA. But as the agency faces 
mounting challenges in the coming years, the urge to justify 
policy decisions with tampered science will remain a constant 
temptation.
    We urge Administrator Jackson and Congress to go beyond 
reversing bad policies from the previous Administration and to 
take steps to secure the credibility of future EPA decisions.
    In truth, there is no silver bullet that will forever 
protect EPA science from political manipulation. Any law or 
policy regime that is flexible enough to allow fact-based 
decisionmaking is vulnerable to mischief by unscrupulous 
policymakers. There is simply no way to watch over every data 
point in its journey from scientist to policy arena.
    But we can increase transparency and power scientists to 
speak out in still broader reforms, and ask Congress to pay 
attention to these issues when drafting legislation and in 
their oversight.
    Transparency means that the media has access to EPA science 
and scientists. Our finding that 783 scientists disagreed or 
strongly disagreed that EPA policies allow scientists to speak 
freely to the news media about their findings suggests the 
importance of the implementation of an agency-wide media policy 
that allows scientists and researchers to freely express their 
personal views with an explicit disclaimer that they are 
speaking as private citizens, and not seeking to represent 
official agency policy.
    Public affairs officers also need to have clearly defined 
and important roles, but are not gatekeepers of information. 
Our analysis of 15 Federal agencies demonstrates that some 
agencies are already successfully doing this.
    Transparency also means that the public has a right to know 
the extent of outside influence on the EPA. The EPA should 
institute a transparency policy for meetings, including a 
complete public record of all meetings with outside entities. 
Computers now make this possible as a quick addition to the 
routine of signing in when visiting a Federal agency.
    Transparency can protect the integrity of EPA science, and 
the EPA should take steps to ensure that science is not 
manipulated in the regulatory process, specifically by 
expanding the information it shares with the public about its 
decisions. The EPA's rulemaking docket should contain all 
scientific studies in an agency's possession related to 
proposed regulation, and all official interagency 
communications regarding rules under review, including those 
from the White House.
    The EPA should publish a summary statement discussing the 
scientific basis for any regulatory decisions informed by 
science.
    EPA whistleblowers are the last bastion against abuses of 
science. The agency scientists have a profound responsibility 
to the U.S. public. To fulfill that responsibility, they need 
reassurance that standing behind their scientific work will not 
open them to retaliation.
    The House is considering a bipartisan comprehensive 
whistleblower protection bill. We strongly support that 
legislation and we urge the Senate to strengthen its 
whistleblower bill, S. 372, in line with House reforms. But 
even before strong whistleblower protection is enacted, we hope 
that Administrator Jackson will send a strong message to agency 
managers now that Federal scientists who raise concerns or 
expose agency misconduct should not be retaliated against.
    Looking to the future, there are far-reaching reforms that 
should be considered to equip the EPA for the challenges of the 
21st century. To prevent political interference in EPA science 
by other agencies, the EPA needs to be empowered to take the 
lead on cross-cutting environmental issues. A 2002 GAO report 
found merit in the idea of elevating the EPA to a Cabinet-level 
agency and we concur.
    Problems with monitoring and enforcement need to be 
addressed by Congress and the President to ensure that the EPA 
is the robust environmental agency that our Country needs. The 
EPA is an organization that necessarily houses both scientific 
and policymaking functions. The interaction between these two 
functions can lead to interference, but is also a source of 
strength and credibility for the organization.
    The science and policy wings of an agency should work as if 
separated by a semi-permeable membrane that ensures the flow of 
scientific information and advice from scientists to 
policymakers to facilitate the creation of fact-based policies, 
but strongly limits how policymakers can affect agency 
scientists.
    Finally, in conclusion, the role for Congress. It is 
vitally important that Congress continue its oversight of 
agency programs and activities. Risk assessment, cost-benefit 
analysis, interactions with OMB and the Federal advisory 
committees have all proven fertile ground for interference in 
the past, and I urge this Committee to laud Administrator 
Jackson for her accomplishments, but also to exercise its 
oversight authority and to remain vigilant to abuses of 
science.
    When considering the next generation of environmental and 
public health laws, I urge Congress to take steps to ensure 
that those laws make use of the best available science and use 
transparency, the empowerment of scientists and other means to 
increase accountability and create laws that are resistant to 
political tampering.
    I look forward to working with the Committee on these 
issues.
    Thank you.
    [The prepared statement of Ms. Grifo follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you, Dr. Grifo. That was a very 
good summation of a very, very thorough statement. I appreciate 
that you sent in the complete statement because it has a lot of 
wonderful material in it, particularly some of the quotes from 
the EPA scientists about the OMB interference. That was very 
trenchant stuff, and thank you for summarizing it so well.
    Dr. Green.

   STATEMENT OF KENNETH P. GREEN, RESIDENT SCHOLAR, AMERICAN 
        ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH

    Mr. Green. Good morning. I would like to thank Chairman 
Boxer, Senator Inhofe, Senator Whitehouse and the Committee for 
having me here today to testify about this very important 
topic.
    I am, as you said, Kenneth Green, Resident Scholar at the 
American Enterprise Institute.
    I generally like to begin with a few words of my 
background. By training, I am an environmental scientist, 
having received my doctoral degree in environmental science and 
engineering from UCLA in 1994. I was drawn to that field 
through a childhood in the San Fernando Valley, a very smoggy 
area when I grew up, where I developed asthma and learned 
first-hand about the hazards of air pollution.
    I felt love for the environment when with my mother and I 
camped in California's many State parks and out in the Mojave 
Desert, where we had a placer mining claim and where the air 
was clean, dry and thoroughly healthful.
    In the 1970s when the oil embargo hit, I tried to set up my 
own solar distillery to make fuel ethanol from surplus oranges 
of my neighbors, but the Bureau of Alcohol, Tobacco and 
Firearms wouldn't give a license to distill to a 13-year-old in 
those days.
    [Laughter.]
    Mr. Green. I have worked at the intersection of science and 
public policy since 1990 when I took an internship position as 
an Environmental Policy Analyst at the now defunct Hughes 
Aircraft Company, which was then headquartered in Los Angeles, 
California. Both the subject of my doctoral studies and the 
focus of my work involved air quality regulations then being 
promulgated by the California Air Resources Board and the Air 
Quality Management District of the South Coast Air Quality 
Management District.
    Subsequently, I worked at several think tanks in the United 
States and Canada and my research has broadened to incorporate 
climate change and energy policy analysis at State, provincial 
and Federal levels.
    As more and more of our Nation's public policy decisions 
involve the use of complex scientific information, I think it 
becomes more and more important that our policymaking 
institutions make use of such information in a process that is 
unbiased, open to outside review and analysis, and allows for 
the airing of divergent opinion, and particularly is 
deliberative enough to ensure the decisions we make are the 
right ones.
    As recent experience has regretfully shown, this is not 
always the case. Policies intended to mitigate climate change 
and conventional pollution with the use of corn ethanol, for 
example, have backfired badly. Rather than reducing greenhouse 
gas emissions, there is every evidence that corn ethanol has 
increased them; rather than reduce conventional air pollution, 
corn ethanol production has increased them, along with 
polluting surface and groundwater, contaminating fish stocks 
with pesticide and herbicide residues, and expanding oceanic 
dead zones caused by algae which bloom when they are over-fed 
by fertilizer runoff from corn agriculture.
    Most of these problems were raised by nongovernmental 
analysts and outside scientists before the ethanol mandates 
were passed, but the policymaking process proved opaque to such 
cautionary voices.
    Now, warnings are coming from nongovernmental policy 
analysts once again. We may see equally perverse impacts from 
other forms of renewable energy being promoted at breakneck 
speed through the spending of stimulus money in pending 
legislation involving energy and climate change.
    For example, new scientific reports are validating concerns 
expressed by energy analysts that concentrated solar power 
systems may have unsustainable water demand and will imperil 
the fragile desert ecosystems I grew up enjoying and would like 
to see for my children and grandchildren safe to enjoy as well.
    Warnings that wind turbines are not environmentally benign 
are also being validated as they are found to cause noise 
pollution, visual blight, bird and bat kills, and potentially 
harm livestock. One recent study, in fact, also has found that 
mass transit systems may even produce more pollutants than the 
automobiles and air travel they seek to displace.
    Left and right, we are seeing failings of policymaking 
bodies to listen to cautionary voices outside of their own 
purview in the development of public policy that is based on 
scientific information.
    The President's Memoranda on Transparency and Open 
Government and on Scientific Integrity are a great start, but 
they can only be considered a start in the process to ensure 
the information is used in the process of public policy 
formation.
    On the plus side, the memoranda correctly identify certain 
important elements of a transparent process featuring 
scientific integrity. The President is exactly right when he 
says political officials should not suppress or alter 
scientific or technological findings and conclusions.
    It is also reassuring the President ordered to the extent 
permitted by law that there should be transparency in the 
preparation, identification and use of scientific and 
technological information in policymaking, and I particularly 
think the President's observation that public engagement 
enhances the Government's effectiveness and improves the 
quality of decisions because knowledge is widely dispersed in 
society. That is spot on.
    All too often, however, I have seen an assumption that only 
scientists working within Government or dependent on 
governmental grants have worthwhile knowledge to inject into 
public policy decisionmaking. There is, I believe, an inherent 
bias against scientists in the private sector, even though 
those are the people who, day in and day out in laboratories, 
produce the prescription drugs and devices that save millions 
and who develop the technologies that empower billions.
    The same is true with regard to the President's and agency 
emphasis on the peer-reviewed literature. As we have discovered 
through revelations about fraud in the scientific and medical 
literature, peer review is no guarantee of accuracy. Often, the 
keys to publication are in the hands of those with a vested 
career interest in preserving a particular theory that gained 
them prestige and standing to be considered as peer reviewers. 
As a recent article, ironically published in the peer-reviewed 
literature, Journal of PLOS Medicine pointed out, most claimed 
research findings are wrong.
    The President, Congress and the regulatory agencies should 
explicitly recognize there is a legitimate role for 
nongovernmental independent scientific participation in the 
public policy decisionmaking process in terms of personnel and 
the injection of scientific research materials conducted 
outside the peer-reviewed literature, but by private entities.
    Many times over my career, I have seen a lack of 
opportunity for consultation. I have seen massive scientific 
reports issued by State and Federal Governments before 
Thanksgiving weekend or just before the Christmas holidays, 
with minimal time allowed for the review of 1,000-page 
documents.
    We may see that again in coming months where we have been 
promised the passage of landmark legislation on climate change 
just in time for the Independence Day holidays and most 
people's summer vacation. That is not what I would call 
accessibility or transparency.
    The rest of my comments I will submit for the record 
because I believe I am running out of time. But to conclude, it 
must be always remembered that science may be able to tell us 
what is, but it cannot tell us what to do. It is important that 
science infuse processes, but not that we be guided or led by 
science. We are not a scientocracy.
    Public policy formation requires the balance of many 
factors, social, economic, equity, individual rights, personal 
responsibilities, and more. Openness and transparency and 
scientific integrity are very important, but they are not the 
only elements that are important in public policy 
decisionmaking.
    Thank you for providing me the opportunity to speak, and of 
course I look forward to your questions.
    [The prepared statement of Mr. Green follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Dr. Goldman.

      STATEMENT OF LYNN GOLDMAN, PROFESSOR AND PRINCIPAL 
     INVESTIGATOR, JOHNS HOPKINS NATIONAL CHILDREN'S STUDY

    Ms. Goldman. Thank you, Senator Boxer and Senator Inhofe in 
absentia for inviting me to testify before you today.
    As you know, I formerly served at the U.S. EPA in the 
Clinton administration. I am a Professor at Johns Hopkins 
University.
    This issue of scientific integrity at the EPA is one that 
is very near and dear to my heart. During the time that I was 
at EPA, we worked very hard to try to get the science right to 
inform regulations, to inform all of our actions, to inform the 
legislation that was being undertaken by this body.
    And we also worked very hard to establish peer review 
practices and other mechanisms to make sure that the external 
scientific community could participate as much as possible and 
so that they could serve as a check, if you may, to make sure 
that the science coming from EPA was completely up to date with 
the science as it is occurring in academia and the rest of 
society.
    And I think the results of that were a number of science-
based actions that served to protect the public's health and 
the environment, which is, after all, what the mission of the 
EPA is all about.
    Last year, I appeared before this Committee to testify 
about my concerns about the changes that had been made to EPA's 
integrated risk information system, or IRIS. Of course, it is a 
very challenging process to completely assess the toxicity of a 
chemical. It requires the engagement of scientists from very 
many disciplines and the synthesis of a tremendous amount of 
information.
    And the peer review process is even more difficult because 
you would want the peer reviewers to be very much at the 
cutting edge of the science, and to be capable of being able to 
review the work of EPA scientists who themselves are 
extraordinarily expert in what they do.
    Unfortunately, in the last Administration, actions had been 
taken that undermined that process. The White House Office of 
Management and Budget was in essence placed in charge of that 
process. There were non-transparent processes that allowed 
other agencies to intervene in that process, and even to stop 
assessments of chemicals if they wanted more time to study 
them. And the last word on the toxicity of the chemicals was in 
the hands of the OMB.
    So I personally am very happy that the EPA under Lisa 
Jackson's leadership has restored the integrity of the IRIS 
process, and I think that the new review process makes sense. 
It is open. It is transparent. It allows everybody to play a 
role, the Federal agencies as well as outside scientists, and 
it allows the final authority over the contents of IRIS 
listings to be in the hands of EPA, which is where it needs to 
be.
    As I at one point worked in a State agency, I worked for 
the State of California, and I can tell you that everybody 
relies on IRIS, the States, industry. It is a very, very 
important resource and it is one that needs to be protected.
    I have also been pleased with the changes that Lisa Jackson 
has announced to the process for creating the so-called NAAQS, 
the National Ambient Air Quality Standards. Again, there had 
been some changes made in the last Administration where the so-
called staff papers that laid out the analysis of EPA 
scientists were disregarded by decisionmakers, and they were 
not made available to the public. They were not made available 
to Congress to review. And I am happy to see that those have 
now been restored to the proper place in terms of helping to 
inform decisions, as well as the new determination on the part 
of EPA to listen to its Clean Air Scientific Advisory 
Committee.
    I will tell you, as a member of the scientific community 
now, that the disputes that were occurring between EPA and 
CASAC hurt EPA terribly in terms of EPA's credibility with 
independent scientists and the fact that, you know, the idea 
that if you were brought to EPA to advise the EPA that your 
advice would not even receive a hearing by decisionmakers, then 
what would motivate you to serve as an adviser to EPA?
    Because believe me, those special Government employee 
assignments take a lot of time. They take you away from your 
research. They take you away from your students. And the only 
reason it is worth doing that is to serve the public, to feel 
that you are doing something in service of EPA.
    In closing, I would like to bring to your attention the 
work of the bipartisan Policy Center's Science for Policy 
Project, that is co-chaired by Sherwood Boehlert and by Don 
Kennedy. I happen to be a member of this. This is an interim 
report from this group called Improving the Use of Science in 
Regulatory Policy. And it is our hope that these kinds of 
reports from outside of the Government will be helpful to all 
of you as you deliberate in the future.
    Thank you again for inviting me to be here with you.
    [The prepared statement of Ms. Goldman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you, Dr. Goldman. I appreciate 
your testimony, and I thank all of the witnesses for their 
participation in this hearing.
    This is the first hearing of the Oversight Committee of the 
Environment and Public Works Committee. And it is a Committee 
that didn't exist before. This is a joint hearing, and 
obviously the Chairman, Barbara Boxer, and the Ranking Member, 
Jim Inhofe, have been here during the course of the hearing, 
and now you are down to the Chairman of the Subcommittee, 
myself, and my distinguished Ranking Member, Senator Barrasso.
    And I would love to hear the advice of the panel on what's 
next. What are the two or three key things that EPA should 
focus on in order to, I would say reclaim its integrity, but 
let's be a little bit more technical, to reclaim processes and 
protocols and standards that will protect its integrity?
    Go ahead, Dr. Grifo.
    Ms. Grifo. Thank you.
    Two or three is hard. I have four.
    Senator Whitehouse. OK.
    Ms. Grifo. Can I stick in four?
    Senator Whitehouse. Four is good.
    Ms. Grifo. I think one of the most important things is 
going to be to draft an agency-wide media policy. I mean, the 
media are the route from EPA to the American people, and we 
really need to have that route opened up.
    The second I would say is just in general providing the 
public with more information about meetings between agency 
officials and outside entities. This has been another source of 
problems in the past.
    Senator Whitehouse. Can I stop you on the media policy just 
for 1 second?
    Ms. Grifo. Yes.
    Senator Whitehouse. Just from a management point of view, 
you could get into a situation in which you had an employee who 
was grandstanding with the media, who was using the media to 
undercut administrative authorities or create management 
problems, to self-aggrandize or stray away from the topic that 
they have been told to handle because they have a personal 
interest in something else.
    There are other motivations for going to the media than 
just plain kind of whistleblowing and transparency. How do you 
cope with those? How do we write a policy or pursue a standard 
of oversight that allows for some degree of management of the 
function of employees in talking to the media, while at the 
same time assuring that that doesn't become an institutional 
problem that affects scientific integrity?
    Ms. Grifo. I think there are two things. One, I think you 
are aware of our work, our media policy scorecard, where we 
looked at 15 agencies. And in fact, there are several agencies 
that do have this kind of a media policy and that hasn't 
happened. It has not become a giant impediment to the work of 
those agencies. So I think it can happen.
    But I think the second thing is that what we are talking 
about is a personal views exemption. That in other words, the 
scientist cannot speak for the agency without going through all 
of those normal channels that we all approve and want to see 
happen.
    Senator Whitehouse. OK. That is a good answer.
    Ms. Grifo. But rather, you know, it is a personal views 
exception. They have to stop and take off their agency hat and 
put on their private citizen hat, and then of course, you know, 
we do have the First Amendment, so we want to----
    Senator Whitehouse. Yes. Understood. OK. I didn't want to 
stop you at one because you had four.
    Ms. Grifo. OK. So that was two, very quickly.
    The third one I think is really about routinely disclosing 
more information about the scientific basis for agency 
decisions. I think there are still, you know, big issues that 
are out there. I think we have a number of these issues 
swirling around. When we look at the relationship between the 
EPA and the Office of Management and Budget that are still, I 
mean obviously we are waiting for the new directive to come out 
of OMB and OIRA to tell us what its role is going to be. But I 
think what is important is OIRA is a creation of Congress. OIRA 
was created by Congress and Congress, you know, could limit 
OIRA and do things in that regard.
    And the last one, last but not least, I think we really 
would like to see Lisa Jackson come out and be very clear with 
her managers, because this is the level at which this is 
happening. She has come out and said in a general sense to 
employees, but to completely and in a focused manner address 
her managers on how retaliation is just not acceptable. Because 
until we have strong whistleblower protections legally enabled, 
we still are going to have those issues because there is this 
culture and we want to see that culture change.
    So those would be my quick four.
    Senator Whitehouse. OK. I will come back to it, but my time 
has expired, so I will turn to the distinguished Senator from 
Wyoming.
    Senator Barrasso. Thank you very much, Mr. Chairman. It is 
a pleasure to work with you on this Oversight Committee. I 
appreciate it. I would say so far you are the finest Chairman 
that this Committee has ever had.
    [Laughter.]
    Senator Barrasso. Dr. Green, if I could just ask you a 
couple of questions. You state in your testimony that there is 
an assumption that only scientists working within Government or 
dependent on Government grants really have worthwhile knowledge 
to inject into public policy decisionmaking. What would you say 
about scientists from environmental special interest groups? 
Are they treated with more credibility?
    Mr. Green. I think to a certain extent they are. They are 
certainly given a place at the table more often, I think, than 
those who are with either non-environmental NGOs or with 
industrial or technological groups.
    I think they are given the benefit of the doubt that they 
are somehow unbiased and not dependent on any sources of income 
that could bias their opinions. And I think that in many cases 
that assumption is open to question.
    Senator Barrasso. Well, do you see a reluctance by Federal 
agencies, then, to hire scientists who come from the private 
sector, say, as opposed to environmental special interest 
groups? And how do you see that happening?
    Mr. Green. I guess that would perhaps that might depend on 
the Administration.
    Again, there is I think a general belief that somehow being 
a productive part of an industrial organization or a private 
organization is a tainting thing to be, that there is some 
taint to actually making things that we rely on in our daily 
lives, and they are not therefore treated with the same level 
of gravitas.
    There is the other fact, however, which is if you are 
actually doing work in laboratories for the private sector, you 
are not focusing on peer-reviewed publication. And therefore, 
the giant emphasis on having a long track record of peer-
reviewed publication does cut against such people who are busy 
actually doing their job.
    Senator Barrasso. You made a comment that I found striking. 
You said that ``While science may be able to tell us what is, 
it can never really tell us what to do.'' And you know, is 
there any issue today where you believe that policymakers are 
saying science is telling us what to do?
    Mr. Green. Well, I mean, absolutely. The biggest issue of 
the day, climate change, is one in which you hear this 
routinely. The science says we must do X. We must achieve this 
level of greenhouse gas emission reductions over this period of 
time. The science tells us we must.
    Well, that is not the nature of science. Science can tell 
you the nature of a problem. It could tell you what impacts you 
might get from a given reduction of greenhouse gases. But the 
decision that that is the worthwhile or the best investment of 
the funds you have at the time you have them with regard to the 
other values you hold dear, such as economic growth, which also 
affects health and the environment, that decision can only be 
done on a multiple value assessment. It is not a dictation of 
science.
    But we hear this regularly, not only with regard to climate 
change, but with regard to chemical exposures, air pollution. 
Science tells us we must do something. As a scientist, I can 
tell you I am the first one who does not want to live in a 
scientocracy.
    Senator Barrasso. Dr. Green, if I could go on. I talked 
with Lisa Jackson about my concerns about how there is now an 
energy and a climate czar with oversight over issues involving 
the Environmental Protection Agency, the Secretary of Interior, 
Secretary of Energy, Secretary of Transportation.
    I just want your thoughts on the creation of an energy and 
climate czar. Is that going to help or hurt using science 
correctly in developing policy?
    Mr. Green. Well, as we found, czars didn't work terribly 
well for Russia, so it is unclear they are going to work any 
better for us. I think it actually is a very bad precedent. I 
think the responsibility of the agency heads to the Senate 
which confirms them is very important in terms of openness, 
transparency and all of the things we have talked about today.
    The fact that there is a Government agency or Government 
person who says explicitly that in order to deny knowledge to 
the public nothing was written down is deeply troubling, when 
you talk about a decision that could lead to the loss of jobs 
for tens of thousands of people, change the buying decisions 
and override the buying decisions of all Americans. I find that 
to be very troubling, and if that is going to be the pattern we 
see with regard to energy decisionmaking as well, I think it is 
still more troubling.
    Senator Barrasso. And then, Dr. Green, I only have about 30 
seconds left. Would you like to respond to any of the other 
comments you have heard from other panelists today?
    Mr. Green. Well, I think there is some general agreement 
here that these are important issues, transparency, openness 
and consultation. But I think without a meaningful commitment 
to allowing the time for deliberation, these things are almost 
all meaningless. I have had the dubious pleasure of reading the 
IPCC reports on science now in their totality every 5 years. 
And I can tell you, you cannot plow through a 1,000-page 
document of intense scientific information over a weekend in 
order to submit comments within a 15-day or 30-day comment 
period.
    Without a real commitment to a deliberative time period and 
the end of game-playing with the release before holidays and so 
forth, all of this is relatively meaningless.
    Senator Barrasso. OK. Thank you.
    Thank you, Mr. Chairman. I have some other additional 
questions for Dr. Grifo and Dr. Goldman. Perhaps I can submit 
those in writing.
    Senator Whitehouse. Or we can continue to a second round?
    Senator Barrasso. No, that is all right. I have an Energy 
markup, so thank you, Mr. Chairman.
    Senator Whitehouse. All right. I wanted to follow up on a 
point that our distinguished Ranking Member just made about, 
and that Dr. Green also did, about the difference between, the 
perceived difference between Government scientists, scientists 
representing not-for-profit organizations, and scientists 
representing the views of for-profit private corporations.
    And I concur that it is not a given that because a 
scientist worked for a private corporation, their credibility 
is diminished or their integrity is subject to question. But it 
does make a bright and simple guideline, and it is a bit of a 
proxy, I would suggest, that may not be exactly accurate. But 
the problem that I see is that within the science supported by 
private for-profit corporations, we have seen over and over 
situations in which the science was really deliberately twisted 
for profit.
    They were real low moments. They could not be characterized 
by scientific integrity. Examples like the American Tobacco 
Institute and its forever campaign to convince people that 
tobacco was safe. The American Lead Institute and its forever 
campaign to convince people that, first, lead was safe; and 
second, well, OK, it is not safe, but you have to eat a flake 
of lead the size of a potato chip before you are actually 
harmed.
    I think we have to be candid and admit that there is an 
industry of bogus or questionable science that infects a part 
of the private sector. And unfortunately, the private sector 
has not really made any effort to distinguish the legitimate 
private science from those propagandizing efforts.
    And as a result, I think there is a broader taint, and 
therefore people who can't pick out one thing from the other 
just think, well, there is no risk of private science being 
corrupt if we don't bother to look at it; if we focus more on 
the NGOs who don't have the same profit motive, and if we focus 
on Government scientists who don't have that motive at all.
    So I would urge that one of the things we might consider in 
this Committee as we go forward is trying to make some of those 
distinctions between what is legitimate science and on what 
occasions the science has just been degraded and turned to 
industry propagandizing. And unfortunately, there are I think 
at this point almost indisputable examples of that.
    And I would like to ask Dr. Goldman on that point. You have 
said that EPA does its best work in the sunshine. Is it enough 
in terms of trying to make that distinction between legitimate 
private science and private science that has been bought and 
paid for to produce a particular result, the so-called 
merchants of doubt? Is sunshine enough or should there be more 
attention to those organizations like the American Tobacco 
Institute and the American Lead Institute of the past that 
frankly don't meet standards of environmental integrity or 
credibility?
    Ms. Goldman. Well, I would agree with you that there does 
need to be more attention paid to that. And I have an 
experience along those lines during the time I was at EPA 
responsible for the regulation of pesticides. Apparently, we 
were looking at one in particular called phosphine.
    After I left EPA, people involved in the tobacco litigation 
sent me a big folder about phosphine and how the tobacco 
companies which were using this pesticide had put together a 
group called, I think they are called the Phosphine Coalition 
or some such thing. And in this folder was a letter from a 
private scientific organization, a consulting firm that was 
hired to support them in defending their product against EPA 
and against regulation in which the firm promised not only a 
certain outcome in terms of, we will evaluate this chemical and 
we will come up with this number as the appropriate number to 
which EPA will regulate it, but they would write a paper about 
that and publish that in the scientific literature before they 
had done one thing, before they had lifted a single pencil to 
do a risk assessment.
    And you know, reading that, I mean, is that what made my 
hair curl? But it really was something I had suspected was 
going on behind the scenes, but had never had proof of. And 
that kind of thing just shouldn't be. And I agree with you that 
industry has some responsibility to help sort this out and to 
weed out some of these practices that are inconsistent with the 
best of science.
    Senator Whitehouse. Yes, I think as you said, there is the 
risk that if industry itself won't stand up to these abusive 
practices and distinguish its science from them, that they will 
then suffer some of that taint, which I think is unnecessary.
    Senator Barrasso.
    Senator Barrasso. [Remarks off microphone.]
    Mr. Green. Yes, I would like to respond to that question. I 
think you make a good point. The problem with bright lines is 
that there is a side on either side of the line. Bad actors are 
all around, not only in private sector, but in Government. For 
the example you gave about private malfeasance, and my mother 
died from smoking, so you can't say anything as bad about the 
tobacco industry as I would.
    But for every instance you have given, I can give another 
one of Government science malfeasance: Tuskegee experiments, 
radiation experiments on airmen during World War II. The 
Government is no stranger to scientific malfeasance any more 
than the private sector is.
    I don't see grounds for giving a benefit of the doubt to 
one side or the other. I see grounds for actually simply being 
careful as to taking multiple inputs and filtering through them 
by determining whether they are true or false, not who wrote 
them, not where they were published, but whether they are true 
or false.
    That would be my main response to that point, which is I 
think to say that the people who, as I said, develop the 
prescription drugs that save lives; who develop the pesticides 
and herbicides that feed people more affordably and that lead 
us to crops which we can export to the world to help address 
world hunger.
    To say that those people are not virtuous people and that 
you have an assumption that they are putting their personal 
interests ahead of the health of other people's children and 
their own children, I think is a somewhat scurrilous thing to 
say.
    Thank you.
    Senator Whitehouse. Dr. Grifo, would you care to comment on 
this discussion? You are the one person who has not been 
included so far.
    Ms. Grifo. Thank you.
    I mean, I think what is very important here are two things: 
clarity and disclosure. I mean, I think you need to be clear 
about, you know, what is the context, who is it that is 
speaking and those sorts of issues. But the disclosure is 
critical. I mean, I think you are right. Obviously, industry 
science has done a tremendous amount for the American public. 
You know, we are all consumers at one level or another.
    But I think what is important to remember is that we don't 
want someone who is taking a large amount of money from a 
company that produces a product that an advisory committee is 
making a decision about. I mean that is a clear conflict of 
interest, and we have to guard very closely against those.
    I mean, personally we would like to see them eliminated 
completely when we are talking about scientific advisory 
committees. We see that industry scientists can come to the 
committee, can present, can answer questions, but when it comes 
to chairing or co-chairing such a committee or voting, that is 
where we would see the distinction and that is where we need 
the clarity.
    Senator Whitehouse. And do you feel that the disclosure at 
present is adequate with respect to let's divide up membership 
on scientific advisory committees; submission of testimony to 
scientific advisory commissions; and submission of comment to 
proposed rulemakings? Are the standards adequate so that the 
public and the policymakers who are reviewing that material 
know who has what motivations?
    Ms. Grifo. Yes, I would submit that they are not. I think 
Dr. Goldman mentioned the Bipartisan Policy Center and the work 
that they are doing, and they are wrestling with this issue, 
and wrestling mightily with this issue. And our President, 
Kevin Knobloch, is also on that steering committee.
    I think, you know, what we are looking for here are true 
disclosure. The two models that are out there that are 
excellent are the National Academies and IARC, which is, you 
know, the French, the World Health Organization. I think both 
of them are models. They look at the very specific issues.
    What I think we need to see, what we institutionally think 
we need to see is for the Office of Government Ethics to come 
in and help with some of these definitions because right now, 
conflict of interest is a little bit of a murky concept, so 
there is a lot of work to be done there. And there are other 
reforms that we really need to consider when we look at FACA, 
which is the Federal Advisory Committee Act.
    Senator Whitehouse. Well, I appreciate the testimony of the 
witnesses. I appreciate the courtesy of my very distinguished 
Ranking Member. And I thank everyone for attending this first 
hearing, albeit a joint one, of the Environment and Public 
Works Subcommittee on Oversight.
    The record of the hearing will remain open for an 
additional week if anybody seeks to add any additional 
materials.
    And if there is nothing further, there is nothing further, 
and we are now adjourned.
    [Whereupon, at 11:45 a.m. the Committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
